APPENDIX 1

Order Denying Reversal of Appellate
Division Opinion, in the New Jersey
Supreme Court (October 27, 2020)

SUPREME COURT OF NEW JERSEY
C-309 September Term 2020
085026
Hirsh Singh,
Plaintiff-Petitioner,

filed
V.

OCT 27 2020

ORDER

Philip D. Murphy,
Defendant.

This matter having come before the Court on plaintiffs application for
emergent relief (S-26-20), pursuant to Rule 2:9-8, seeking reversal of the
Appellate Division’s opinion filed on October 21, 2020; and

Plaintiff having informed the Court that he wished for the Court to
consider his request for relief on the merits based on the briefs submitted to the
Appellate Division; and

The Court having determined to treat plaintiffs submissions requesting
merits-based review and reversal of the Appellate Division’s judgment as an

1

expedited notice of petition for certification and petition for certification,
consistent with the Rules of Court applicable to final judgments; and

The Court having reviewed expeditiously plaintiff s application and the
record in this matter, including the parties’ Appellate Division briefs; it is

ORDERED that the petition for certification is DENIED.

WITNESS, the Honorable Stuart Rabner, Chief Justice, at Trenton, this
27th day of October, 2020.

CLERK OF THE SUPREME COURT

2

OZOZ ‘IZ J9qopo) uoisiaiq eiBneddV

‘^jnoQ joijedng ^esjep

Z XIQN3ddV

ui ‘uotuido

NOT FOR PUBLICATION WITHOUT THE
APPROVAL OF THE APPELLATE DIVISION
This opinion shall not "constitute precedent or be binding upon any court." Although it is posted on the
internet, this opinion is binding only on the parties in the case and its use in other cases is limited. IL 1:36-3.

SUPERIOR COURT OF NEW JERSEY
APPELLATE DIVISION
DOCKET NO. A-0323-20T4
HIRSH SINGH,
Plaintiff-Appellant,
v.
HONORABLE PHILIP D.
MURPHY, in his official
capacity as Governor of
New Jersey, HONORABLE
TAHESHA WAY, in her
official capacity as New
Jersey Secretary of State,
Defendant-Respondent.

IN THE MATTER OF THE
PETITIONS OF
HIRSH SINGH FOR
RECOUNT AND RECHECK.

Argued October 15, 2020 - Decided October 21, 2020
Before Judges Sabatino, Currier and Gooden Brown.
On appeal from Executive Order No. 144 and related
Executive Orders, pursuant to a transfer from the

Superior Court of New Jersey, Law Division, Morris
County, Docket No. L-1757-20.
Hirsh Singh, appellant, argued the cause pro se.
Beau C. Wilson, Deputy Attorney General, argued the
cause for respondents Philip D. Murphy, Governor and
Tahesha Way, Secretary of State (Gurbir S. Grewal,
Attorney General, attorney; Melissa H. Raksa,
Assistant Attorney General, of counsel; Beau C.
Wilson, on the brief).
Joseph J. Bell argued the cause for respondent Holly
Mackey, County Clerk, County of Warren (Bell &
Shivas, P.C., attorneys; Joseph J. Bell, on the brief).
PER CURIAM
Plaintiff Hirsh Singh1 is a New Jersey resident who was a candidate in the
2020 New Jersey Republican primary election for the United States Senate.
Self-represented, he challenges the validity of the mail-in voting procedures that
were utilized in the July 7, 2020 primary.

The modified procedures were

implemented pursuant to Executive Orders of the Governor issued in the wake
of the COVID-19 pandemic. Plaintiff further challenges the validity of the
modified mail-in voting procedures now being used for the 2020 general election
in accordance with an additional Executive Order and a cognate statute enacted

1 As he pointed out in a motion with the trial court, plaintiffs first name had
been misspelled in some previous court documents, but it is correctly shown
here.
2

A-0323-20T4

by the Legislature this summer. He seeks injunctive and other relief, including
an order nullifying the announced results of the July 2020 primary election for
Senate and the House of Representatives, directing a new primary election to be
conducted, and enjoining the continued use of the modified mail-in system for
the November 2020 General Election.
Plaintiff brought lawsuits in several counties to obtain relief, contending
that if the modified mail-in voting procedures were nullified, he would have
been declared the winning candidate in the statewide primary election. After
the lawsuits were consolidated, plaintiff abandoned his efforts to seek a recount
of the primary results and narrowed his focus to seek to invalidate the modified
voting procedures under federal law.

Insofar as that claim entails a facial

challenge to the validity of the Governor's Executive Orders, it was transferred
to this court procedurally for appellate review under the Court Rules, thereby
leaving to the trial court any lingering as-applied factual disputes or other
claims.
For the reasons that follow, plaintiffs facial challenges and his associated
requests for injunctive relief are denied. As to his claims that the modified
voting procedures for the primary election prescribed by Executive Order 144
did not comport with the federal constitution, we conclude that exercise of

3

A-0323-20T4

authority was permissible under the emergency powers the Legislature delegated
to the Governor under the Emergency Health Powers Act, N.J.S.A. 26:13-1 to 31, and the Civilian Defense and Disaster Control Act, N.J.S.A. App. A:9-30 to
-63. Given the unassailable severity of the COVID-19 pandemic and the need
to reduce the risk of infection to New Jersey voters and polling workers, the
Governor was authorized to exercise those delegated emergency powers and
revise customary in-person voting processes in order to protect the public health
and safety.
As to plaintiffs claims that the modified voting procedures now being
implemented for the general election violate the federal constitution and federal
law, similar arguments were very recently rejected by the United States District
Court in a persuasive October 6, 2020 published opinion, and we likewise
decline to declare them invalid.
Further, plaintiff has not demonstrated a right to the extraordinary and
summary injunctive relief he seeks, applying the well-established criteria of
Crowe v. De Gioia, 90 N.J. 126 (1982). Among other things, plaintiff has not
established that his claims of invalidity are supported by settled law, that
alteration of the present status quo is equitably warranted, or that the public

4

A-0323-20T4

interest favors nullification of the statewide primary results and the immediate
cessation of the ongoing vote-by-mail processes for the general election.
Lastly, plaintiffs non-facial claims, including his claim of a deprivation
of free speech rights by the Attorney General, are reserved for the trial court for
disposition. The claims he has attempted to assert under the federal Freedom of
Information Act, 5 U.S.C. § 552(a)(4)(B), seeking records and information from
the United States Postal Service are dismissed without prejudice, for lack of
jurisdiction in this state court.
I.
The Executive Orders at Issue
On February 3, 2020, three days after the United States Department of
Health and Human Services Secretary declared a public health emergency for
the United States to aid the nation's healthcare community in responding to
COVID-19, Governor Philip D. Murphy issued Executive Order 102. That order
created the state Coronavirus Task Force, to be chaired by the Commissioner of
the New Jersey Department of Health (DOH), and consisting of the heads of the
Department of Human Services, the Department of Law & Public Safety, the
New Jersey State Police, the Department of Education, and the Office of

5

A-0323-20T4

Homeland Security and Preparedness. Exec. Order No. 102 (Feb. 3, 2020), 52
N.J.R. 366(b) (Mar. 2, 2020), | 2-3.
On March 9, when there were more than 500 confirmed cases of COVID19 in the United States, and eleven in New Jersey, Governor Murphy issued
Executive Order 103, declaring a public health emergency and directing the
"State Director of Emergency Management, who is the Superintendent of State
Police, in conjunction with the Commissioner of DOH, to take any such
emergency measures as the State Director may determine necessary." Exec.
Order No. 103 (Mar. 9, 2020), 52 N.J.R. 549(a) (Apr. 6, 2020), 1 1.
Thereafter, on April 8, Governor Murphy issued Executive Order 120.
The Executive Order noted in a preamble that public health officials were
predicting that New Jersey's COVID-19 public health emergency was
anticipated to peak in April 2020, and to continue for an indefinite time beyond
the peak.

Given those circumstances, Executive Order 120 postponed the

statewide primary elections for United States Congressional and state local
elections from the first Monday in June, as is normally called for by statute in
N.J.S.A. 19:2-1, and rescheduled that primary election for July 7. Exec. Order
No. 120 (Apr. 8, 2020), 52 N.J.R. 957(a) (May 4, 2020), f 1.

6

A-0323-20T4

According to the DOH, in the three weeks that followed the issuance of
Executive Order 120, there were 6,285 additional confirmed COVID-19 deaths
in New Jersey.2
More election-related changes designed to deal with the COVID-19 crisis
followed. On May 15, the Governor, through Executive Order 144, instituted a
series of changes to the election infrastructure for the July 7 primary elections.
Exec. Order No. 144 (May 15, 2020), 52 N.J.R. 1238(a) (June 15, 2020). In the
preamble to that order, Governor Murphy referred to data received from the
Center for Disease Control and Prevention (CDC) reporting that, as of that time,
there were more than 4,000,000 COVID-19 cases worldwide, with nearly
300,000 deaths. Of those, more than 1,000,000 cases and 80,000 deaths were in
the United States. As of that point, the Governor continued, there had been more
than 100,000 cases and nearly 10,000 deaths in New Jersey. The severity of the
pandemic had "ma[d]e it difficult for election officials, candidates, and voters
to properly plan and prepare for and fully participate in the July primary
elections if they were to proceed as they would under normal circumstances."
Ibid.

2 See N.J. COVID-19 Information Hub, https://covidl9.nj.gov/index.html (last
accessed on October 9, 2020).
7

A-0323-20T4

The Governor further stated in Executive Order 144 that social distancing
measures were necessary "for a period of as-yet-undetermined duration," and
that "the COVID-19 outbreak may have significant effects on New Jersey's
voting systems as long as social distancing measures are in place." Ibid. The
order recognized a danger that, without an alternative way of voting, the
pandemic would "hinder public participation in the democratic process,
particularly among elderly and immune-compromised voters," and thereby
would "undermine the legislative intent of N.J.S.A. 19:8-2 and 19:8-3.1,"
statutes aimed at securing the "right to vote," including for individuals with
disabilities and the elderly. Ibid.
Based on these risks to public health and safety recited in the preamble,
Executive Order 144 directed that "[a] 11 elections that take place on July 7, 2020,
shall be conducted primarily via vote-by-mail ballots," which would be sent
automatically to all voters registered as Democrats or Republicans. Id. at f 1.
The order further directed that each county would be required to keep polling
places open for the primary election and that voters who went to those polling
places would be able to fill out provisional ballots there. Ich at fflf 8, 10.
The primary election took place as planned on July 7, with most voters
taking advantage of the vote-by-mail method for casting ballots.

8

A-0323-20T4

Additional measures ensued. On August 14, Governor Murphy issued
Executive Order 177, titled "[A]n Order to Protect Public Health by Mailing
Every Active Registered Voter a [Vote-By-Mail] Ballot Ahead of the General
Election." Exec. Order No. 177 (Aug. 14, 2020), 52 N.J.R. 1701(b) (Sept. 21,
2020).

Two weeks later, on August 28, the Legislature enacted N.J.S.A. 19:6331, essentially incorporating the universal vote-by-mail procedures set forth in
Executive Order 177 into statutory law, to be operative for the November 2020
General Election.
The Primary Election Results and Plaintiffs Challenges
The tabulated results for the primary election, certified by the Secretary
of State, revealed that plaintiff received 146,139 votes, which was 8,727 votes
less than Rikin Mehta, who received 154,866 total votes, and was declared the
winner of the Republican Party nomination for United States Senate.3
On September 1, plaintiff filed in the Superior Court in Morris County a
statewide petition to contest the primary election.

Eight days later, on

September 9, the Assignment Judge for the Morris/Sussex Vicinage issued an

3 See Official Primary Election Results: U.S. Senate. N.J. Div. of Elections,
https://www.state.nj.us/state/elections/assets/pdf/election-results/2020/2020official-primary-results-us-senate-amended-0826.pdf.
9

A-0323-20T4

order consolidating that petition in Morris County, along with various other
recount petitions which plaintiff had, as of that time, filed throughout the State.
On September 14, plaintiff filed an application for "partial summary judgment"
on his consolidated Morris County claims.
On September 16, the Attorney General, representing both the Governor
and the Secretary of State, entered opposition to plaintiffs motion for partial
summary judgment and simultaneously cross-moved to dismiss plaintiffs
petition, arguing that it was both unsupported and untimely. On the same day,
plaintiff filed an order to show cause seeking a temporary restraining order and
injunction to prevent the printing of mail-in ballots for the general election
containing the names of the candidates certified to have won the primary
election of July 7, 2020. Plaintiff also moved, as he phrased it, to "disqualify"
the Attorney General's response papers, which he alleged had been submitted
late. He asked the trial court to rule on the papers that had been submitted in
his motion for partial summary judgment.

The Attorney General filed

opposition.
On September 22, the trial court denied plaintiffs motion to disallow
defendants' motion to dismiss but did not rule on the merits of the dispositive
motions. On the same day, the court denied plaintiffs order to show cause for

10

A-0323-20T4

a temporary restraining order and preliminary injunction. Plaintiff concurrently
filed an amended verified petition to contest the Republican primary election for
United States Senator.
The next day, on September 23, the Chief Justice issued an order stating
that, pursuant to N.J.S.A. 19:29-2, any of plaintiffs still-pending recount
petitions or previously filed petitions to contest the primary election would be
consolidated in the trial court in Morris County.
On September 28, plaintiff filed a motion in the trial court seeking to,
among other things, withdraw from all pending recount applications he had
filed, and obtain a prompt resolution of his partial motion for summary judgment
on his petitions to contest the election. In that application, plaintiff argued that
only the in-person provisional ballots were constitutionally valid, that the mailin-ballots were constitutionally invalid, and that the court should "declare the
entire primary election null and void" and "hold it again" to avoid
disenfranchising voters.
Transfer to the Appellate Division of the Facial Challenge to Executive
Order 144
On September 30, the trial court transferred the consolidated matters to
the Appellate Division for review under Rules 1:13-4(a) and 2:2-3(a)(2), and
Vas v. Roberts, 418 N.J. Super. 509 (App. Div. 2011). Two days later, on
11

A-0323-20T4

October 2, plaintiff filed an application for emergent appellate relief challenging
Executive Order 144, the primary election based on it, and the use of the results
of the primary election on the ballots for the general election to be held on
November 3, 2020.
On October 5, Presiding Judge for Administration Carmen Messano
issued an order of this court denying plaintiffs application for emergent relief,
noting that the matter had already been fully briefed in the Law Division and
had been transferred to the Appellate Division under Rule 1:13-4. The order
further stated plaintiffs application for emergent relief would be treated as a
motion seeking acceleration of the matter, which the court granted. The order
established an expedited simultaneous deadline for optional supplemental briefs,
"limited to the constitutional challenge plaintiff has brought to the Executive
Order issue," in anticipation of a prompt calendar date.
The following day, on October 6, plaintiff sent an email to this court,
asking for a dispositive ruling on the papers already submitted to the Law
Division. He also sought clarification as to whether an argument he had raised
under the federal Freedom of Information Act (FOIA) remained a part of the
case. The Attorney General separately advised this court that he intended to

12

A-0323-20T4

submit a supplemental brief by the court's specified October 13 deadline, and
that he requested oral argument rather than a disposition on the papers.
Later that same day, this panel issued a follow-up order, setting oral
argument for October 15, and clarifying that "[t]he discrete issues for which the
Appellate Division has accepted jurisdiction solely concern appellant's facial
challenges to the Governor's Executive Orders and the voting procedures for the
2020 election, and not any factual disputes or other disputes." The order further
made clear that "[t]he various County Clerks and U.S. Senate candidate Rik
Mehta who had responded to the trial court with regard to non-facial issues
concerning the 2020 U.S. Senate Republican Primary need not participate as
respondents in this appeal" unless they filed briefs by the common October 13
deadline.
In accordance with this scheduling order, plaintiff filed on October 13 a
twenty-nine-page submission, which he labeled as a "motion for summary
judgment."4 The submission concludes with these numerous requests for relief:

4 Consistent with appellate practice, we treat the pro se submission as a motion
for summary disposition under Rule 2:8-3, and, because it presents legal
arguments and citations to case law and various codified provisions, as an
appellant's brief. We have also considered plaintiffs various submissions to the
trial court.

13

A-0323-20T4

Declare the Executive Order 144 issued by
Governor Phil Murphy to be unconstitutional and in
contravention of the Elections Clause and the Due
Process [Clause] of the United States Constitution^]
1.

Restore the status quo ante as to the manner of
conducting elections[.]
11.

iii. Declare the primary election of July 7, 2020 for
all political parties unconstitutional and hence null and
void[.]
Forbid the use in the General Election of ballots
with names of candidates nominated through the
process of the unconstitutional primary election created
through the Executive Order 144 of Governor Phil
Murphy [.]
IV.

Direct the [S]tate of New Jersey to conduct fresh
v.
primary elections in accordance with the law for all
races to fill up the offices of Senators and
Representatives mentioned in the Elections Clause of
the U.S. Constitution^]
Declare the cease and desist letter sent by New
Jersey's Attorney General to be election interference
and in violation of the due process clause[.]
vi.

vii. Declare the cease and desist letter sent by New
Jersey's Attorney General to be in violation of the free
speech clause[.]
viii. Direct the Attorney General's office to rescind
the letter and clarify that they were in violation of the
Constitution and admit that the Petitioner acted in
accordance with the Constitution and all laws[.]

14

A-0323-20T4

Declare the entire system of mail-in ballots
except as provided by previously defined procedures
for the absentee ballots to be issued to the members of
the Armed Forces to be in violation of the Freedom of
Information Act[.]
IX.

x.
Issue an injunction forbidding the use of the mailin ballot system for the general election of November
3, 2020[.]
On October 13, the Attorney General submitted a timely supplemental
brief opposing plaintiffs application.

The Attorney General argues that

plaintiffs claims are procedurally untimely and that he should be equitably
estopped from seeking relief. As to the merits, the Attorney General further
argues that the Executive Orders at issue are facially and constitutionally valid,
and that no injunctive or other relief is warranted.
In addition, the County Clerk of Warren County submitted a short letter
brief requesting that plaintiffs appeal be denied in its entirety. The County
Clerk argues that the special circumstances of the COVID-19 pandemic
supported the Executive Orders modifying customary election processes, that
the County dutifully carried out those processes, and that there is no reason at

15

A-0323-20T4

this juncture to nullify the outcome of the primary election or to alter the
ongoing voting methods in the general election.5
No other county clerks or parties submitted briefs or appeared in the
appeal, including the declared Republican Party nominee for Senate.

Oral

argument was conducted on October 15, and the issuance of this opinion has
been expedited.
The District of New Jersey Federal Decision
Meanwhile, on October 6, 2020, the United States District Court for the
District of New Jersey issued a 31-page published opinion in Donald J. Trump
for President, Inc, v. Wav,__F. Supp. 3d

(D.N.J. 2020) (slip opinion). In

that case, the Republican National Committee, along with President Donald J.
Trump for President, Inc., and the New Jersey Republican State Committee,
primarily sought a preliminary injunction enjoining N.J.S.A. 19:63-31. The
plaintiffs argued the newly enacted statute violated the Elections Clause of the
United States Constitution. The plaintiffs argued the new state statute violates
the Elections Clause because it authorizes the canvassing of mail-in ballots
beginning up to ten days before election day and the canvassing of ballots not

5 The County Clerk also observes that plaintiff received the most tabulated votes
in Warren County in the Republican Senate primary.
16

A-0323-20T4

postmarked but received within forty-eight hours of the polls' closing. Way, slip
op. at 16, 21. The plaintiffs asserted this was inconsistent with the Elections
Clause because Congress had set forth the time, place, and manner of holding
national elections by federal statute in establishing a uniform general election
day to be the Tuesday following the first Monday in November. 2 U.S.C. §§ 1,
7.

The District Court in Trump v. Way declined to enter the injunction and
allowed the ongoing mail-in voting procedures to continue. Among other things,
the opinion found no violation of the Elections Clause or federal law occurring
as the result of the modified procedures.6
II.
Pursuant to Rule 2:2-3(a)(2), "appeals may be taken to the Appellate
Division as of right ... to review final decisions or actions of any state
administrative agency or officer." Under this rule, "agencies whose actions have
been held to be reviewable in the first instance by the Appellate Division are
those located within the principal departments in the executive branch of state
government." Vas v. Roberts, 418 N.J. Super, at 517. As "the Governor is the

6

We discuss the opinion in more detail, infra, with respect to plaintiffs
arguments to enjoin the vote-by-mail processes being used in the present general
election.
17

A-0323-20T4

State's chief executive or administrative officer," id at 519, a challenge to the
constitutionality of an Executive Order of the Governor falls within the scope
of a challenge to a final administrative decision or order under Rule 2:2-3(a)(2),
Commc'ns Workers of Am., AFL-CIO v. Christie, 413 N.J. Super. 229, 251
(App. Div. 2010).
Plaintiffs main argument of facial invalidity rests upon the application of
the Elections Clause set forth in Article I, Section 4, Clause 1 of the United
States Constitution. That clause reads:
The Times, Places, and Manner of holding Elections for
Senators and Representatives, shall be prescribed in
each State by the Legislature thereof; but the Congress
may at any time by Law make or alter such Regulations,
except as to the Places of [choosing] Senators.

ru.s. Const, art. I, § 4, cl. 1.]
Plaintiff contends that Executive Order 144 violated this provision because the
Elections Clause requires a state's "Legislature thereof' to enact the procedures
for holding elections for Senators and members of Congress. He argues that
Executive Order 144 was a unilateral action of the Governor that needed to be
concurrently adopted by the New Jersey Legislature in order to be
constitutionally valid. However, that argument is not supported by settled law.
In fact, precedents of the United States Supreme Court have adopted a more

18

A-0323-20T4

expansive notion of the form of state legislative power that may satisfy the
Elections Clause.7
The Elections Clause authorizes each state to enact processes to be
followed in electing members of the House and Senate from their respective
states. As the Supreme Court recognized in Storer v. Brown, 415 U.S. 724
(1974), states retain the power of establishing the time, place, and manner of
primary elections under the Elections Clause. "[A]s a practical matter, there
must be a substantial regulation of elections if they are to be fair and honest and
if some sort of order, rather than chaos, is to accompany the democratic
processes." EL at 730. The Court explained in Foster v. Love, 522 U.S. 67, 69
(1997), that the Elections Clause "is a default provision; it invests the States
with responsibility for the mechanics of congressional elections." The Court
reiterated in U.S. Term Limits. Inc, v. Thornton, 514 U.S. 779, 832 (1995) that
the Framers intended the Elections Clause to grant states the authority to create
procedural regulations for such federal elections.

7

Respondents do not dispute that the Elections Clause and federal power
potentially extend to state primary elections for federal offices. See Foster v.
Love. 522 U.S. 67, 71 n.2 (1997) ("Congressional authority extends not only to
general elections, but also to any 'primary election which involves a necessary
step in the choice of candidates for election as representatives in Congress.'")
(citing United States v. Classic. 313 U.S. 299, 320 (1941)).
19

A-0323-20T4

Recent Supreme Court precedent has established that the reference to the
"Legislature" in the Elections Clause encompasses more than just legislative
lawmaking bodies. In Arizona State Legislature v. Arizona Indep. Redistricting
Comm'n. 576 U.S. 787, 806-09 (2015), the Court upheld the validity of an
independent congressional redistricting commission created by a voter ballot
initiative rather than through a statute enacted by the Arizona Legislature. The
Court rejected the challengers' argument that only the Arizona Legislature could
specify the district boundaries and electoral processes. Tracing the history of
Article I, Section 4, Justice Ginsburg's majority opinion for the Court observed
that "[t]he dominant purpose of the Elections Clause, the historical record bears
out, was to empower Congress to override state election rules, not to restrict the
way States enact legislation." Id. at 814-15.
The Supreme Court has made clear that the term "Legislature" as used in
the Elections Clause does "not mean the representative body alone." Icf at 805.
Instead, the term more broadly refers to a state's legislative power, "performed
in accordance with the State's prescriptions for lawmaking." I(L at 808; see also
Smiley v. Holm. 285 U.S. 355, 367-68 (1932) (holding that the Elections Clause
allows a state's governor to exercise veto powers under state law to override

20

A-0323-20T4

decisions made by the legislature concerning the time, place, and manner of
elections).
In our own state, constitutional powers are distributed among the three
classic branches of democratic government: the Governor, the Legislature, and
the Judiciary.

See N.J. Const, art. III. Lawmaking power is shared by the

Legislature and the Governor in numerous ways, including the Governor's power
to veto legislation, N.J. Const, art. V, § 1, and the Legislature's reciprocal power
to invalidate certain administrative regulations, which otherwise have the force
of law, issued by the Executive Branch, N.J. Const, art. V, § 4. Our case law
has long recognized that the branches of state government are not "water-tight
compartments," but rather that the "aim of the separation-of-powers doctrine is
not to prevent such cooperative action, but to guarantee a system in which one
branch cannot" usurp the powers of another. Commc'ns Workers of Am., AFLCIO v. Florio. 130 N.J. 439, 449-50 (1992).
The State convincingly argues that in issuing Executive Order 144 while
the public health crisis caused by COVID-19 escalated, the Governor lawfully

8 Plaintiffs appellate brief states that "no challenge is made under the provisions
of the New Jersey Constitution," although he has referred to its provisions at
times for purposes of context. An issue not briefed on appeal is deemed waived.
See Midland Funding LLC v. Thiel, 446 N.J. Super. 537, 542 n.l (App. Div.
2016).
21

A-0323-20T4

acted pursuant to his legislatively-assigned responsibilities vested in him by two
statutes: The Emergency Health Powers Act, N.J.S.A. 26:13-1 to -31 (EHPA)
and the Civilian Defense and Disaster Control Act, N.J.S.A. App. A:9-30 to -63
(Disaster Control Act).

These statutes, duly adopted by the Legislature,

respectively define emergencies to include "an occurrence or imminent threat of
an occurrence" of disease that "poses a high probability of," among other things,
"a large number of deaths, illness, or injury in the affected population," N.J.S.A.
26:13-2, and "any unusual incident resulting from natural or unnatural causes
which endangers the health, safety or resources of the residents of one or more
municipalities of the State," N.J.S.A. App. A:9-33.1.
The Disaster Control Act, the older and more invoked provision, is
especially on point. Enacted in 1941, the statute bestows on the Governor broad
authority "to utilize and employ all the available resources of the State
Government and of each and every political subdivision of this State, whether
of men, properties or instrumentalities, and to commandeer and utilize any
personal services and any privately owned property necessary to avoid or protect
against any emergency." N.J.S.A. App. A:9-34.
The purpose of the statute is to "protect the public by centralizing control
over local government resources in situations whose remedies were beyond the

22

A-0323-20T4

authority and power of local government." Worthington v. Fauver, 88 N.J. 183,
195 (1982). For this reason, the Governor is not required to "wait for a serious
disruption to occur" before invoking the powers granted under the Act. Ibid.
The Governor's broad delegated authority to issue emergency orders
encompasses "any matter that may be necessary to protect the health, safety and
welfare of the people," N.J.S.A. App. A:9-45(i), even where such action alters
the rules that would govern in non-emergency periods. Cnty. of Gloucester v.
State. 132 N.J. 141, 145 (1993).
Our courts on multiple occasions have sustained executive orders that
"flow[ ] out of the Governor's legislatively-delegated emergency powers to act
on behalf of the safety and welfare of the people of New Jersey under the
Disaster Control Act." See Commc'ns Workers of Am.. AFL-CIO v. Christie,
413 N.J. Super, at 259 (listing such cases in which the Governor invoked his or
her emergency powers).
"Where the executive acts pursuant to an express or implied authorization
from the Legislature ... he exercises not only his own powers but those of the
Legislature." Worthington, 88 N.J. at 208 (emphasis added). Hence, as a matter
of established New Jersey law, the Governor may exercise powers that have
been delegated to him by the Legislature in order to address emergency

23

A-0323-20T4

situations. Such emergency action does not offend legislative hegemony in its
delegated sphere.
Nor do the emergency statutes repose in the Governor, as plaintiff argues,
unbridled “dictatorial” power. If the Legislature disagrees with a Governor’s
emergency action it can respond by passing legislation, subject to veto, that
repeals or amends the Disaster Control Act or EHPA with language disallowing
a particular exercise of authority.
Judicial review of the exercise of delegated powers is limited. "In such
circumstances the executive action should be 'supported by the strongest of
presumptions and the widest latitude of judicial interpretation, and the burden
of persuasion would rest heavily upon any who might attack it.'" Ibid, (quoting
Youngstown Sheet & Tube Co. v. Sawyer, 343 U.S. 579, 637 (1952) (Jackson,
J., concurring)) (concerning analogous concepts of federal separation of
powers). "In such a case [the executive's] actions pursuant to that delegated
authority are constitutionally valid as long as he has not exceeded his statutory
authority and the government as a whole has the power to act." Worthington,
88 N.J. at 208.
Executive Order 144 was issued and implemented consistent with this
legislative delegation of emergency authority. Plaintiff has not demonstrated

24

A-0323-20T4

any basis on which to conclude that the Governor's issuance of Executive Order
144 to conduct the primary election in a way designed to canvass votes while
minimizing person-to-person contact due to the COVID-19 emergency exceeded
his broad authority "to utilize and employ all the available resources of the State
Government and of each and every political subdivision of this State ... to avoid
or protect against any emergency." N.J.S.A. App. A:9-34.
Plaintiffs brief asserts that the Disaster Control Act does not support the
Executive Order because the modifications of the election process "have nothing
to do with property damage or destruction." But that argument overlooks the
other language within the Act empowering the Governor to protect the "health,
safety and welfare of the people." N.J.S.A. App. A:9-33. It is plain that the
measures undertaken to reduce in-person contact at the polls are aimed at
promoting the health and safety of voters and poll workers in the midst of a
deadly pandemic that still has yet to be contained.9

9 The Attorney General has drawn our attention to a recent opinion of the federal
district court in Montana involving parallel issues. In that case, the Montana
Governor, under emergency powers delegated to him by the Legislature to
suspend enforcement of regulatory statutes, issued a directive that the ordinary
statutory prohibition on the use of mail-in ballots in the general election in
Montana was going to be lifted for the 2020 general election due to concerns
caused by COVID-19. Against a challenge that, among other things, the
Governor's suspension of the regulatory prohibition on mail-in balloting
(continued)
25

A-0323-20T4

Plaintiff argues that the Executive Order itself represents an improper
delegation of authority to other executive agencies, such as the State DOH and
the county departments of health, as well as the CDC. The Executive Order
merely recites in this regard that vote-by-mail ballots shall be processed and
canvassed "in accordance with guidelines provided" by such health agencies.
The reference to health guidelines is not a misuse or transfer of the emergency
powers delegated to the Governor. Rather, it bespeaks a commitment that those
powers will be implemented in accordance with public health standards. If
anything, the reference to such guidelines helps assure that the emergency
powers are not implemented recklessly or arbitrarily.
Plaintiff has pointed out that on April 14, six days after Governor Murphy
issued Executive Order 120, which postponed the primary election, the
Legislature ratified the postponement of the primary date. D 2020, c^ 21, titled

violated the Elections Clause, the District Court held that by invoking his
emergency powers under state law in enacting the regulatory suspension, the
Governor acted within the scope of the delegated powers of the Legislature in
affecting the time, place, and manner of Montana's federal elections. The
Attorney General contends this result and reasoning, although not binding
precedent, happens to be consistent with the similar delegation of emergency
powers exercised by Governor Murphy in his Executive Orders under the EHPA
and the Disaster Control Act. Because the opinion apparently has not been
published, we do not cite to it or rely on it as precedential authority, see Rule
1:36-3, and mention it only for comparative and historical purposes.
26

A-0323-20T4

"An Act Concerning the Date of the Primary Election." The complete text of
that April 14 legislation reads:
1.
a. Notwithstanding the provisions of [N.J.S.A.
19:2-1], [N.J.S.A. 19:23-40], any provision of Title 19
of the Revised Statutes, or any other law, rule, or
regulation to the contrary, the 2020 primary election
shall not be held on the Tuesday next after the first
Monday in June, falling on June 2, 2020, and shall be
held instead on the Tuesday next after the first Monday
in July, falling on July 7, 2020. Any other election
scheduled to occur between May 13, 2020 and July 6,
2020, inclusive, shall be rescheduled to be held on July
7, 2020.
b. Nothing in this act shall be interpreted to affect
the deadlines prescribed under the provisions of Title
19 of the Revised Statutes for the nomination of
candidates, filing of petitions, acceptance of
nominations, certification of nominations, and any
other deadline required to be met preceding the primary
election, when that deadline occurs before April 11,
2020, including, but not limited to, the deadline for
filing nominating petitions under [N.J.S.A. 19:23-14],
for amending defective petitions under [N.J.S.A.
19:23-20], for the filing of objections to nominating
petitions under [N.J.S.A. 19:13-10], for determining
the validity of objections to nominating petitions under
[N.J.S.A. 19:13-11], and for drawing for ballot
positions under [N.J.S.A. 19:23-24], which dates shall
continue to be determined by reference to June 2, 2020.
All other deadlines prescribed under the provisions of
Title 19 of the Revised Statutes for meeting statutory
requirements for a primary election shall be calculated
using the July 7, 2020 primary election date.

27

A-0323-20T4

c. Notwithstanding the provisions of subsection
b. of this section, or any other law, rule, or regulation
to the contrary, the party affiliation deadline
established under [N.J.S.A. 19:23-45] shall be
calculated based on the July 7, 2020 primary election
date.
d. Notwithstanding the provisions of Title 19 of
the Revised Statutes, or any other law, rule, or
regulation to the contrary, petitions for direct
nomination for the general election required to be filed
under [N.J.S.A. 19:13-3] through [N.J.S.A. 19:13-9]
shall be due by 4:00 p.m. on July 7, 2020.
2.

This act shall take effect immediately.

ribid.l
To be sure, the Legislature did not pass similar legislation ratifying the
universal vote-by-mail procedures effectuated by Executive Order 144 between
its issuance on May 15, and the primary election on July 7. As we have already
shown, the passage of such cognate legislation was not vital, because the
Governor already possessed the delegated authority to take emergency action to
safeguard public health and safety.
Moreover, although it is not essential to our analysis, subsequent events
are indicative of an arguable legislative ratification of, or acquiescence to, the
health and safety measures undertaken in Executive Order 144. Such ratification
or acquiescence is intimated by the statute that established the vote-by-mail

28

A-0323-20T4

procedures for the 2020 general election, enacted on August 28, 2020. L^ 2020,
c^71 (Chapter 71).
Chapter 71 states that" [notwithstanding any other law to the contrary, to
allow enough time for the county clerks to print and mail the ballots to voters,
the following deadlines are modified as follows . . . the last day a vacancy may
occur for primary election nominees for the November 2020 General Election
. . . shall be August 28, 2020," the date that the law went into effect. N.J.S.A.
19:63-3 l(k)(2). The statute further states that "the deadline to fill a vacancy in
the primary election nominees for the November 2020 General Election ... shall
be August 31, 2020." N.J.S.A. 19:63-3l(k)(3). By thereby foreclosing the
possibility of a special election to fill any vacancy for primary election nominees
for the 2020 general election, the Legislature appears to have implicitly ratified
the outcomes of the July 7 primary election and, also by implication, the validity
of the modified election procedures that were used in that election.
Additionally, the legislative fiscal estimate prepared by the non-partisan
Office of Legislative Services for the 2020 general election legislation expressly
references Executive Order 144, stating that "many of the requirements of [L,.
2020, c^ 71] coincide with those of Executive Order 144 requiring the
procurement of secure ballot drop boxes for the July 7, 2020 primary elections.

29

A-0323-20T4

This bill expands that requirement to any subsequent election in the State."
Office of Legis. Servs., Fiscal Note to Assembly Bill No. 4475 (Aug. 26, 2020)
(emphasis added).
Courts "may refer to [a] bill's fiscal note to ascertain legislative intent if
necessary." Matter of 1997 Assessments, 311 N.J. Super. 600, 606 (App. Div.
1998).

Here, the August 26 Fiscal Note's express declarations that the

provisions of N.J.S.A. 19:63-31 "coincide with" and "expand" election
procedures and "requirements" implemented by Executive Order 144 provide
further indicia that the Legislature intended to ratify those emergency
procedures. See In re Plan for Abolition of Council on Affordable Hous., 424
N.J. Super. 410, 419-20 n.3 (App. Div. 2012) (holding that legislative history
referencing a reorganization plan enacted by the Governor through legislatively
delegated powers constituted a ratification of executive action), affd as
modified. 214 N.J. 444 (2013).
As we have said, we need not and do not rely on an inference of
ratification to uphold the constitutional validity of Executive Order 144. We
mention it simply as an indication that the Legislature itself evidently has not
concluded that its institutional lawmaking powers were usurped.

For that

matter, the Legislature has not brought suit or moved to intervene in this

30

A-0323-20T4

litigation, as contrasted with the lawsuit pursued by the Arizona Legislature in
the redistricting commission case seeking to nullify the commission's authority
under the Elections Clause. Arizona State Legislature, 576 U.S. at 787.
In sum, plaintiffs argument that Executive Order 144 was facially invalid
and violated the Elections Clause of the United States Constitution is
unpersuasive. Through the exercise of the emergency powers delegated to him
by the Legislature, the Governor took authorized action to address a mounting
pandemic and protect the public health, safety, and welfare.
Due Process and Equal Protection Clauses
Plaintiffs facial challenge to the Governor's actions under the Due Process
Clause of the Federal Constitution is also unavailing. Plaintiff alleges he was
deprived by Executive Order 144 of his due process right to cast ballots in an
election created by the Legislature in accordance with the Constitution.
The Due Process Clause of the Fourteenth Amendment to the United
States Constitution provides that no state may "deprive any person of life,
liberty, or property, without due process of law." U.S. Const, amend. XIV, § 1.
"[A] statute is invalid on substantive due process grounds if it 'seeks to promote
[a] state interest by impermissible means.'" Caviglia v. Royal Tours of Am.,
178 N.J. 460, 472 (2004) (alterations in original). "[A] state statute does not

31

A-0323-20T4

violate substantive due process if the statute reasonably relates to a legitimate
legislative purpose and is not arbitrary or discriminatory."

Greenberg v.

Kimmelmam 99 N.J. 552, 563 (1985).
Plaintiff offers no controlling legal authority for a claimed Due Process
right to cast a vote by a particular method. Nor has he convincingly argued that
by changing the primary rules to limit person-to-person contact and the spread
of infection from COVID-19, Executive Order 144 was enacted with an
illegitimate, arbitrary, or discriminatory purpose.
Although plaintiff has made factual contentions that the vote-by-mail
processes for the primary election were incorrectly administered in certain
locations and resulted in irregularities in the counting of ballots, those claims
are beyond the scope of a facial challenge to the Executive Orders properly
before this court.

Any remaining as-applied factual contentions must be

litigated in the trial court. IE 2:2-3(a)(2) (noting the appellate court's function
as a reviewing court, and not as a fact-finder that can hear witnesses and make
factual findings); see also State v. S.S.. 229 N.J. 360, 365 (2017) ("the customary
role of an appellate court is not to make factual findings but rather to decide
whether those made by the trial court are supported by sufficient credible
evidence in the record"); In re Contest of Democratic Primary Election of June

32

A-0323-20T4

3. 2003 for Off, of Assembly of Thirty-First Legis. Dist., 367 N.J. Super. 261,
265 (App. Div. 2004) (reviewing a Law Division adjudication of an election
contest petition brought under N.J.S.A. 19:29-1).
We similarly discern no basis for relief as to plaintiffs facial arguments
under the Equal Protection Clause. U.S. Const, amend. XIV, § 1. He asserts
that if the court nullifies the results of the Republican Primary Election, then it
must likewise nullify the results of the Democratic Primary Election, or else that
would give the other major political party an unfair campaigning advantage. We
need not adjudicate that hypothetical situation, because, as noted above, plaintiff
has failed to demonstrate that the Executive Order regulating the primary
election as a whole was facially unconstitutional.
The Freedom of Information Act
Plaintiff alleges that the procedures implemented by Executive Order 144
violate the FOIA by creating an "opaque process," alleging he has no means of
obtaining information regarding certain procedures followed by the county
canvassing boards. In particular, plaintiff alleges that the United States Postal
Service has failed to produce records relating to the election that he has requested,
which also violates the FOIA, Plaintiff has not, however, made the United States
Postal Service, or any federal entity, a party in this case.

33

A-0323-20T4

The FOIA states that, absent certain exceptions, "each agency, upon any
request for records which (i) reasonably describes such records and (ii) is made in
accordance with published rules stating the time, place, fees (if any), and procedures
to be followed, shall make the records promptly available to any person." 5 U.S.C.
§ 552(a)(3)(A).
State courts do not have jurisdiction over a FOIA claim. Jurisdiction for FOIA
claims lies in "the district court of the United States in the district in which the
complainant resides," not in state court. 5 U.S.C. § 552(a)(4)(B). Plaintiff has not
pointed to any authority in which a state court has entertained such a claim in the
context of an election contest, or in any other context. His FOIA claims against the
United States Postal Service or any other federal agency must be brought in federal
court, should he choose to pursue them.
Free Speech Claims
Plaintiff contends that a cease-and-desist letter he received from a Deputy
Attorney General on June 25 directing him to stop asking voters to submit duplicate
ballots and change their votes was a violation of his free speech rights under the First
Amendment to the United States Constitution. U.S. Const, amend. I. The letter was
apparently founded upon 52 U.S.C. § 10307(e), which makes it illegal for voters to
vote twice in federal elections, subject to certain exceptions.

34

A-0323-20T4

The factual, as-applied issue as to whether plaintiffs speech was
unconstitutionally chilled by the Attorney General's letter is outside the narrow
appropriate scope of this court's review of a final administrative decision under Rule
2:2-3(a)(2). The claim does not assert facial invalidity of the Governor's Executive
Orders, which were the only claims properly transferred here pursuant to the
appellate rules. Consequently, that particular claim must be adjudicated in the trial
court.
Claims Concerning the General Election and for Injunctive Relief
Apart from his arguments concerning the primary election, plaintiff
contends the administration of the present general election is likewise invalid
under the federal constitution. He argues the inclusion of prevailing nominees
for federal office from the primary election on the ballot for the general election
violates the Due Process Clause, because the primary election itself was
unconstitutional. The premise of that argument is incorrect, for the reasons this
opinion has already noted.
Plaintiff specifically requests the court to "[djeclare the entire system of
mail-in ballots except as provided by previously defined procedures for the
absentee ballots to be issued to members of the Armed Forces" to be invalid. He

35

A-0323-20T4

further asks this court to "[i]ssue an injunction forbidding the use of the mail-in
ballot system for the general election."
These and other requests for injunctive relief asserted by plaintiff
implicate well settled principles under New Jersey civil law. In Crowe v. De
Gioia, 90 N.J. at 126, the Court identified several factors to guide whether
injunctive relief is appropriate.
First, a preliminary injunction should not be granted except to prevent
irreparable harm, which the Court defined as harm that "cannot be redressed
adequately by monetary damages," "severe personal inconvenience," or where
the "nature of the injury or of the right affected" make it appropriate. Id at 13233. The second principle is that "temporary relief should be withheld when the
legal right underlying the plaintiffs claim is unsettled."

Ibid.

Third, a

preliminary injunction should not issue unless the plaintiff makes a preliminary
showing of "a reasonable probability of success on the merits." Ibid. Fourth, a
court must evaluate "the relative hardship to the parties in granting or denying
relief." Id. at 134.
In addition, and germane here, a case that "'presents an issue of significant
public importance' requires the court to 'consider the public interest in addition
to the traditional Crowe factors.'" N.J. Election Law Enft Comm'n v.

36

A-0323-20T4

DiVincenzo, 445 N.J. Super. 187, 195-96 (App. Div. 2016) (quoting Garden
State Equal, v. Dow, 216 N.J. 314, 321 (2013)) (emphasis added).
These traditional Crowe factors likewise bear upon requests for permanent
injunctive relief. See, e.g., Murray v. Lawson, 136 N.J. 32, 50-51 (1994), cert.
granted, judgment vacated on other grounds, 513 U.S. 802 (1994); Horizon
Health Center v. Felicissimo, 135 N.J. 126, 139 (1994).
The Crowe analysis has been applied in the context of injunctive relief
sought concerning an election. See, e.g., Finkel v. Twp. Comm., 434 N.J. Super.
303, 310 (App. Div. 2013); McKenzie v. Corzine, 396 N.J. Super. 405, 416
(App. Div. 2007) (citing N.J. Democratic Party, Inc, v. Samson, 175 N.J. 178,
190 (2002)).
Applying those factors here, plaintiff has not demonstrated that injunctive
relief of any kind should be ordered.
First, for simplicity, we will assume purely for sake of discussion that
plaintiff has alleged that his rights as both a political candidate and voter will be
irreparably harmed if the court does not compel an immediate halt to the
processes being used in the general election. Even if that assumption were true,
the other Crowe factors overwhelmingly tip against his requests for the
extraordinary and massive injunctive measures he has sought.

37

A-0323-20T4

On the second prong, plaintiff has not shown his legal theories of
invalidity are supported by "settled law." Nor, on the related third prong, has
he made a sufficient showing of a probability of success on the merits to justify
enjoining the ongoing general election.
To the contrary, we have already dispelled above plaintiffs arguments of
unconstitutionality under the Elections Clause. And, to the extent that plaintiff
argues the mail-in voting procedures now being used for the general election
violate "settled" federal law, the recent published opinion of the United States
District Court in Trump v. Wav shows otherwise.
The District Court in Trump v. Way declined to enter an injunction
regarding the 2020 general election and rejected the plaintiffs' "broad
construction" of the federal election laws, noting that states had hi storically been
given wide discretion in permitting various forms of absentee voting and early
voting. Wav, slip op. at 16. As to the late-received ballots, the court held there
was "no direct conflict" between New Jersey's law and the federal election day
statutes. Id at 24. The court also found, in balancing the harms, that entering
an injunction against the universal vote-by-mail procedures "would frustrate
. . . ongoing efforts to educate voters about the new by-mail election ... at the
risk of time and expense for the State and confusion for the voters." Id at 29.

38

A-0323-20T4

The court held, for the same reason, that enjoining a state's election procedures
on the eve of an election would not be in the public interest and would risk voter
disenfranchisement. Id. at 30.
"[I]t is well-established that under principles of comity, and in the
interests of uniformity, federal interpretations of federal enactments" by federal
courts in published cases, though not controlling on state courts, are nevertheless
"entitled to our respect." Ryan v. American Honda Motor Co., Inc., 186 N.J.
431, 436 (2006). The District Court's precedential opinion in Trump v. Wav
appears to be soundly reasoned, and, at the very least, reflects that plaintiffs
requests for injunctive relief are not supported by "settled" law and that they
lack rather than possess a probability of success.10
The fourth and fifth Crowe factors—concerning the relative interests of
the parties and the interests of the public at large—manifestly tip against
granting the extraordinary measures plaintiff seeks. McKenzie. 396 N.J. Super.
at 416 (including the consideration of the public interest in the Crowe analysis
in the context of an election). The general election utilizing the mail-in voting

10 Since plaintiffs facial challenges lack merit, we need not ponder the legal
and voter confusion that would ensue if a federal court ruled under federal law
that an election may continue to proceed as planned and a state court separately
ruled under federal law that it may not.

39

A-0323-20T4

procedures has been underway for many weeks. According to the representation
of the Deputy Attorney General made to us at oral argument, it is estimated that
over a million New Jersey voters have already marked and mailed in their
ballots.

Disrupting that process now would inevitably cause widespread

upheaval and potential voter disenfranchisement. Similarly, an order nullifying
the primary election at this juncture and invaliding nominees on the general
election ballot would produce comparable harm.
It must also be underscored that the entire state, including political
candidates such as plaintiff, were on notice as of May 15 when Executive Order
144 was issued, that the procedures for the primary election would be modified
to allow mail-in voting due to the COVID-19 pandemic. Apparently no one,
including plaintiff, filed suit to enjoin that process before the primary election
took place.
The voters and other candidates who participated in that primary election
had a right to expect that the votes would be counted and that the results would
be certified and used in the general election. Although we need not reach or rest
upon defendants' argument that plaintiff is "equitably estopped" from bringing
his claims, his inaction before the primary took place surely affects the

40

A-0323-20T4

comparative equities.11 Plaintiff took advantage of the extended opportunity to
campaign and attract voters for the primary election and did not attempt to halt
the process. It was only after he was not victorious in the primary that he went
to court and argued that Executive Order 144 is unconstitutional. Meanwhile,
other candidates for the Senate and the House of Representatives, as well as
other offices, had their status as nominees (or, as the case may be, defeated
candidates) determined.
In addition to the Crowe factors under state law, there is a wealth of
federal precedent that weighs heavily against entertaining on-the-brink
challenges to the voting procedures of upcoming elections. See, e.g., Purcell v.
Gonzalez, 549 U.S. 1, 5-6 (2006) ("Court orders affecting elections, especially

11 We recognize that plaintiff filed his election contest petition on September 1
apparently in compliance with the twelve-day deadline for such petitions under
N.J.S.A. 19:29-3, as the last Senate recount from Sussex County was announced
on August 20. Nevertheless, mere compliance with the statutory deadline for an
election contest does not mean the equities and the public interest support the
extraordinary injunctive relief he seeks. Plaintiff knew weeks before the July
primary what Executive Order 144 said, and that it was allowing citizens to vote
by mail without an advance request for a ballot. The change from usual voting
processes was clear. There was no need to wait for the election to occur in order
to bring a challenge to the procedures. Ideally, “[t]he time to protest [to the
process] is before the election, and not, as here, after the event.” Two Guvs from
Harrison. Inc, v. Furman. 32 N.J. 199, 233 (1960). Even if plaintiffs complaint
is not time barred or estopped, its timing bears upon the balancing of Crowe
factors for obtaining injunctive relief.
41

A-0323-20T4

conflicting orders, can themselves result in voter confusion and consequent
incentive to remain away from the polls. As an election draws closer, that risk
will increase."); Nader v. Keith, 385 F.3d 729, 736 (7th Cir. 2004) (disallowing
third-party presidential candidate's suit challenging constitutionality of state
election code that was not filed until June of an election year, which was four
months after his candidacy was announced, and "created a situation in which
any remedial order would throw the state's preparations for the election into
turmoil"); Kay v. Austin, 621 F.2d 809, 813 (6th Cir. 1980) ("As time passes,
the state's interest in proceeding with the election increases in importance as
resources are committed and irrevocable decisions are made, and the candidate's
claim to be a serious candidate who has received a serious injury becomes less
credible by his having slept on his rights.").
To the extent we have not discussed them, any other arguments made by
plaintiff that bear upon facial validity lack sufficient merit to warrant discussion.
Rt2:ll-3(e)(l)(E).
III.
For these abundant reasons, plaintiffs facial challenges to Executive
Order 144 and any other pertinent Executive Orders are denied, and his requests
for injunctive relief and summary judgment/decision are likewise denied.

42

A-0323-20T4

Jurisdiction in this appellate court is concluded, and the matter is remanded to
the trial court to adjudicate in due course plaintiffs as-applied and other claims

5

including any necessary determinations of material fact.
Affirmed in part, remanded in part.
I Hereby certify that the foregoing
is a true copy of the original on
file in my office.
CLERK OF THE APPELATE DIVISION

43

A-0323-20I4 !

APPENDIX 3
Order Transferring, Complaint(s)/Petition(s) to
the Superior Court, Appellate Division
(September 30,2020)

PREPARED BY THE COURT
HIRSH SINGH,
Plaintiff/Petitioner,
v.

SUPERIOR COURT OF NEW JERSEY
LAW DIVISION, CIVIL PART
MORRIS COUNTY
DOCKET NO.: MRS-L-01757-20
CIVIL ACTION

HON. PHILIP D. MURPHY, in his
official capacity as Governor of
New Jersey, et als.,
Defendant(s)/Respondent(s).

ORDER TRANSFERRING COMPLAINT(S)/
PETITION(S) TO THE SUPERIOR COURT,
APPELLATE DIVISION, PURSUANT
TO R. l:13-4(a)

IN THE MATTER OF THE
PETITIONS OF HIRSH SINGH
FOR RECOUNT AND RECHECK

THESE MATTERS, having been opened to the Court by plaintiff, Hirsh Singh, pro se,
upon his petitions for recheck and recount, and complaint contesting the outcome of the 2020 New
Jersey Republican Primary Election; and the Court having consolidated all matters under a single
docket; and upon having reviewed the petitions, complaint and first amended complaint; and it
appearing that because the complaint contesting the results of the 2020 New Jersey Republican
Primary Election substantively challenges the constitutionality and/or application of Governor
Murphy’s Executive Orders 120 and 144; and because pursuant to R. 2:2-3(a)(2) and Vas v.
Roberts. 418 N.J. Super. 509 (App. Div. 2011), challenges to executive orders exceed the subject
matter jurisdiction of this Court; and for good cause having been shown; therefore,
IT IS, on this 30th of September, 2020;

ORDERED, that because this Court lacks subject matter jurisdiction, pursuant to R.
2:203(a)(2), to adjudicate the petitions/complaints consolidated under docket number, MRS-L01757-20, the matters are hereby transferred to the Superior Court, Appellate Division, in
accordance with R. 1:13-4(a), and shall thereafter be heard in due course.

Stuart A. Minkowitz
Assignment Judge

A copy of this Order has been served on all parties of interest via eCourts and email.

APPENDIX 4
Plaintiffs’ Motion for Summary Judgement to the
Superior Court, Appellate Division (October 13,
2020)

Hirsh Singh
Filing as Pro Se
P.O. Box 407 Linwood, NJ 08221
9 Wexford Lane Linwood, NJ 08221
(609)335-5289
info@hirshsingh.com

HIRSH SINGH,
Petitioner,

APPELLATE COURT OF NEW JERSEY

v.
LAW DIVISION

HONORABLE PHILIP D. MURPHY, in
his official capacity as Governor of New
Jersey, HONORABLE TAHESHA WAY,
in her official capacity as New Jersey
Secretary of State; HONORABLE Joanne
Schwartz, in her official capacity as
Burlington County Clerk, BURLINGTON
COUNTY BOARD OF ELECTIONS and
COUNTY BOARD OF CANVASSERS;
HONORABLE Joseph Ripa, in his official
capacity as Camden County Clerk,
CAMDEN COUNTY BOARD OF
ELECTIONS and COUNTY BOARD OF
CANVASSERS; HONORABLE Stever
Peter, in his official capacity as Somerset
County Clerk, SOMERSET COUNTY
BOARD OF ELECTIONS and COUNTY
BOARD OF CANVASSERS;
HONORABLE Rita Marie Fulginiti, in her
official capacity as Cape May County
Clerk, CAPE MAY COUNTY BOARD
OF ELECTIONS and COUNTY BOARD
OF CANVASSERS; HONORABLE
Celeste M. Riley, in her official capacity as
Cumberland County Clerk,
CUMBERLAND COUNTY BOARD OF
ELECTIONS and COUNTY BOARD OF
CANVASSERS; HONORABLE Mary H.
Melfi, in her official capacity as Hunterdon
County Clerk, HUNTERDON COUNTY
BOARD OF ELECTIONS and COUNTY

DOCKET NO. A-323-20
CIVIL ACTION
MOTION FOR SUMMARY
JUDGMENT

1

BOARD OF CANVASSERS;
HONORABLE Paula Sollami-Covello, in
her official capacity as Mercer County
Clerk, MERCER COUNTY BOARD OF
ELECTIONS and COUNTY BOARD OF
CANVASSERS; HONORABLE Elaine
Flynn, in her official capacity as Middlesex
County Clerk, MIDDLESEX COUNTY
BOARD OF ELECTIONS and COUNTY
BOARD OF CANVASSERS;
HONORABLE Christine Giordano
Hanlon, in her official capacity as
Monmouth County Clerk, MONMOUTH
COUNTY BOARD OF ELECTIONS and
COUNTY BOARD OF CANVASSERS;
HONORABLE Ann F. Grossi, in her
official capacity as Morris County Clerk,
MORRIS COUNTY BOARD OF
ELECTIONS and COUNTY BOARD OF
CANVASSERS; HONORABLE Danielle
Ireland-Imhof, in her official capacity as
Passaic County Clerk, PASSAIC
COUNTY BOARD OF ELECTIONS and
COUNTY BOARD OF CANVASSERS;
HONORABLE Joanne Rajoppi, in her
official capacity as Union County Clerk,
UNION COUNTY BOARD OF
ELECTIONS and COUNTY BOARD OF
CANVASSERS; HONORABLE Holly
Mackey, in her official capacity as Warren
County Clerk, WARREN COUNTY
BOARD OF ELECTIONS and COUNTY
BOARD OF CANVASSERS;
HONORABLE Jeff Parrott, in his official
capacity as Sussex County Clerk, SUSSEX
COUNTY BOARD OF ELECTIONS and
COUNTY BOARD OF CANVASSERS;
HONORABLE Dale A. Cross, in his
official capacity as Salem County Clerk,
SALEM COUNTY BOARD OF
ELECTIONS and COUNTY BOARD OF
CANVASSERS; HONORABLE Scott M.
Colabella, in his official capacity as Ocean
County Clerk, OCEAN COUNTY
BOARD OF ELECTIONS and COUNTY

2

BOARD OF CANVASSERS;
HONORABLE E. Junior Maldonado, in
his official capacity as Hudson County
Clerk, HUDSON COUNTY BOARD OF
ELECTIONS and COUNTY BOARD OF
CANVASSERS; HONORABLE James N.
Hogan, in his official capacity as
Gloucester County Clerk, GLOUCESTER
COUNTY BOARD OF ELECTIONS and
COUNTY BOARD OF CANVASSERS;
HONORABLE Christopher J. Durkin, in
his official capacity as Essex County Clerk,
ESSEX COUNTY BOARD OF
ELECTIONS and COUNTY BOARD OF
CANVASSERS; HONORABLE John S.
Hogan, in his official capacity as Bergen
County Clerk, BERGEN COUNTY
BOARD OF ELECTIONS and COUNTY
BOARD OF
CANVASSERS;HONORABLE Edward P.
McGettigan, in his official capacity as
Atlantic County Clerk, ATLANTIC
COUNTY BOARD OF ELECTIONS and
COUNTY BOARD OF CANVASSERS.
Respondents.

3

TABLE OF CONTENTS
Section
TABLE OF AUTHORITIES
INTRODUCTION
POTENTIAL REMEDIES
FACTS
EXECUTIVE ORDER 144 OF THE NEW JERSEY GOVERNOR,
THE PRIMARY ELECTION BASED ON IT, AND THE INCLUSION
OF NOMINEES FROM THE PRIMARY ELECTION ON THE
BALLOT FOR THE GENERAL ELECTION VIOLATE THE
ELECTIONS CLAUSE OF THE UNITED STATES CONSTITUTION
EXECUTIVE ORDER 144 OF THE NEW JERSEY GOVERNOR,
THE PRIMARY ELECTION BASED ON IT, AND THE INCLUSION
OF NOMINEES FROM THE PRIMARY ELECTION ON THE
BALLOT FOR THE GENERAL ELECTION VIOLATE THE DUE
PROCESS CLAUSE OF THE UNITED STATES CONSTITUTION
THE NEW JERSEY ATTORNEY GENERAL’S LETTER IS IN
VIOLATION OF THE FREE SPEECH CLAUSE OF THE UNITED
STATES CONSTITUTION
THE MAIL-IN BALLOT SYSTEM VIOLATES THE FREEDOM OF
INFORMATION ACT AS IT APPLIES TO THE POSTAL SERVICE
WHICH IS A COMPONENT IN WHAT SHOULD BE A
TRANSPARENT GOVERNMENT PROCESS
PETITIONER DID NOT WAIT UNTIL THE EVE OF ELECTION; IT
IS THE DEFENDANTS WHO OBSTRUCTED THE PETITIONER’S
EFFORTS AND WASTED TIME; YET IT IS STILL NOT THE EVE
OF THE ELECTION; PRECEDENTS FAVOR PETITIONER’S
ARGUMENTS BOTH ON TIME AND VOIDING THE PRIMARY
DEFENDANTS ARE WRONG TO OPPOSE THE COMPLAINT
BEING A CONSOLIDATED ONE, THE CONSTITUTIONAL
CLAIMS ARE CLEARLY WITHIN THE PURVIEW OF DISPUTES
RELATED TO NJSA 19:29-1, AND COURTS HAVE A HISTORY OF
ADDRESSING THEM
PETITIONER WINS IF ONLY CONSTITUTIONAL BALLOTS ARE
COUNTED; UNLIKE EO 144 BASED BALLOTS, ABSENTEE
BALLOTS ARE GOVERNED BY EXISTING FEDERAL LAWS
AND ARE NOT CHALLENGED IN THIS ACTION BUT IF THIS
LAWSUIT RESULTS IN THE AUDIT OF THAT PROCESS, IT WILL
BENEFIT THE COUNTRY
SUMMARY JUDGMENT

4

Page(s)
5
6
6
7
9

14

15

16

17

23

25

27

TABLE OF AUTHORITIES

Page(s)

Cases
Reynolds v. Sims, 377 U.S. 533 (1964)

15

United States v. Classic, 313 U.S. 299, 313 U.S. 315

15

Arizona State Legislature v. Arizona, Independent Redistricting Commission,
576 U.S. 787 (2015)

14

Smiley v. Holm, 285 U. S. 355, 369

14

Other authorities
Article 1, Section 4 of the Unites States Constitution

6,9

Article IV, Legislative Section 1(1) of the New Jersey Constitution

10

Article IV, Legislative Section 7(6) of the New Jersey Constitution

10

Article III of the New Jersey Constitution

10

Article IV, Legislative Section 1 (4) of the New Jersey Constitution

12

Article II (4) of the New Jersey Constitution

16

5 U.S. Code § 552 (a)(1)

16

5 U.S. Code § 552 (a)(3)(A)

16
6,7,9,10,11,12,14,20,21,22,26,27,28

Executive Order 144 of Governor Phil Murphy

5

Plaintiff moves for Summary Judgment on the Elections Clause Claim, Due Process Claim,
Free Speech Claim, and the Violation of the Freedom of Information Act based upon the following:

I.

INTRODUCTION

The claims upon which this motion for Summary Judgment has been moved are the violation of
Article 1, Section 4 (“Elections Clause”), the Due Process Clause, and the Free Speech Clause of the
United States Constitution, and the Violation of 5 U.S. Code § 552 (“Freedom of Information Act” or
“FOIA”) as it applies to United States Postal Service (“USPS”). Although several provisions from the
New Jersey Constitution and New Jersey laws are described in order to provide the legislative context,
no challenge is made under the provisions of the New Jersey Constitution.
POTENTIAL REMEDIES
The Court must note that the action of moving the primary election from June 2, 2020 to July 7,
2020 was sanctioned by the legislature and was legitimate. However, Executive Order 144 (“EO 144”)
that pertained to the mail-in ballots for all voters of the state, was issued by the Governor, and any
election or election process for federal offices that arose as a result of EO 144 is illegal and
unconstitutional. The court could potentially rule that only the ballots from in-person voting on July 7,
2020 and the absentee ballots that were requested in compliance with the law that existed prior to EO
144 be counted while discarding all other mail-in ballots. Alternatively, the court could determine that
such a ruling would deprive the voting rights of millions of voters who in good faith believed their
mail-in ballots were legal votes, and instead void the entire primary election for the federal offices. In
either case, the printing and mailing out of ballots for the general election in November based on the
result of the illegal primary election must be stopped.

6

II.

FACTS

This lawsuit is brought by Republican Primary Candidate for the U.S. Senate seat in New
Jersey, Hirsh Singh (“Petitioner”), who has standing as a candidate as he ran in the primary election
held on July 7, 2020 for the aforementioned seat. The candidate was injured by the fact that while he
was in the midst of campaigning as a candidate participating in a lawfully created election, he was
forced to redirect his resources as well as the resources of his campaign to contest in the illegitimate
election, the manner of which was created by Executive Order 144 issued by the New Jersey Governor
. The Petitioner was also deprived of the opportunity to participate both as a candidate and as a voter in
a lawfully created primary election because of the Governor’s Executive Order.
During the primary election created by the Executive Order, the petitioner also received a ceaseand-desist letter from the Attorney General’s office that asked the Petitioner to cease and desist from
his political speech asking voters to seek a duplicate ballot and change their vote in case they had
wrongly marked their ballots. (Petitioner’s message to voters - Exhibit A of Singh Declaration;
Attorney General’s cease and desist letter - Exhibit B of Singh Declaration)
Petitioner’ s message to the voters included the following lines, “As a patriot, if you have been
hoodwinked into voting for Rik Mehta, it is your patriotic duty to contact your county clerk and request
a duplicate ballot to vote for the only Conservative Hirsh Singh. Your duplicate ballot will replace your
earlier ballot.” The cease and desist letter informed the Petitioner that his message to the voters was in
violation of the law and threatened a fine and imprisonment. It highlighted the line stating “Your
duplicate ballot will replace your earlier ballot” and wrongly claimed this was a false statement and
directed the petitioner and stop disseminating the information to voters, “You are to immediately cease
and desist from any further mailing, emailing or any other dissemination of the attached letter.” The
letter was also publicized in the press and the Petitioner was characterized as a wrongdoer.

7

The immediate effect of the cease and desist letter was for the campaign to comply with it under
the impression that there must have been some law that had been inadvertently violated, and to deal
with the negative fallout in the media as a result of the cease and desist letter. The Petitioner had to
cease working on campaign related activities Such as drafting policy, crafting messages for voters, and
sending out mailers, and instead spent time researching the law and creating a press release to deal with
the media fallout of the threatening cease and desist letter. (See Singh Declaration)
At the time the cease and letter had been received, the official Camden County website under
the heading “Common reasons to request a replacement ballot are:” listed various reasons for
requesting a duplicate ballot and one such reason was “Your ballot was not voted correctly.” (Exhibit
C of Singh Declaration) The ballots of Atlantic County and Ocean County also clearly stated that
voters can request duplicate ballots if they incorrectly marked them. (Atlantic County ballot - Exhibit
D of Singh Declaration; Ocean County ballot - Exhibit A of Rullo Declaration)
Petitioner Hirsh Singh visited the Post Offices of the United States Postal Service located at
Toms River, Ocean County and spoke to the Post Master Thomas Wagner and sought information
related to the ballots of the primary election of July 7, 2020. (Singh Declaration) Petitioner also visited
the municipal post offices of the Atlantic County and spoke to the postmaster at the location in order to
obtain information about the ballots. (Singh Declaration) All communication with the postmasters as
well as the state representative occurred on July 22, 2020 or prior to that date, and there has been no
response from them so far. (Singh Declaration)
Neither were the Postmasters able to provide the information, nor was there a well defined procedure to
seek information related to election ballots under the Freedom of Information Act to which all federal
agencies including USPS are subject to. Mr. Thomas Wagner provided by scribbling on the back of his
business card, the name one Mr. John DAlessio as the individual who was responsible for all mail-in
ballots at USPS in New Jersey, but the Petitioner was not able to get a response from Mr.DAlessio after

8

several attempts at calling and leaving a voice message, emailing him, and going to his USPS Belmar
place of business, as he was not responsive to the Petitioner's attempts to obtain the information.
(Singh Declaration; front and back sides of Thomas Wagner’s business card - Exhibits E and F of
Singh Declaration)
The entire mail-in-ballot system except for the well established procedures for the absentee ballots for
Armed Services Personnel lacks transparency, and the use of USPS to transport the ballots without a
proper procedure for making the information about such transportation available for public inspection
flies in the face of the concept of an open and transparent election process as well as the Freedom of
Information Act.
The Post Office has also indulged in decision-making in the election process by determining
which ballots postmarked July 8 could be counted. It has not provided any information on how it makes
these decisions or who authorized them to make such decisions. Nor can we provide any such
information because those decisions were arbitrary and in violation of the law.

III.
EXECUTIVE ORDER 144 OF THE NEW JERSEY GOVERNOR, THE
PRIMARY ELECTION BASED ON IT, AND THE INCLUSION OF NOMINEES
FROM THE PRIMARY ELECTION ON THE BALLOT FOR THE GENERAL
ELECTION VIOLATE THE ELECTIONS CLAUSE OF THE UNITED STATES
CONSTITUTION
(a)

Provisions in the United States Constitution and the related provisions in New
Jersey's Constitution
Article 1, Section 4 of the Unites States Constitution provides, “The Times, Places and Manner

of holding Elections for Senators and Representatives, shall be prescribed in each State by the
Legislature thereof; but the Congress may at any time by Law make or alter such Regulations, except
as to the Places of choosing Senators.”

9

Consequently, the New Jersey Legislature has created laws related to the times, places and
manner of holding elections. Article IV, Legislative Section 1(1) of the New Jersey Constitution clearly
states, “The legislative power shall be vested in a Senate and General Assembly” while Article IV,
Legislative Section 7(6) states, “The laws of this State shall begin in the following style: "Be it enacted
by the Senate and General Assembly of the State of New Jersey. »!«
Additionally, Article III of New Jersey’s Constitution provides, “No person or persons
belonging to or constituting one branch shall exercise any of the powers properly belonging to either of
the others, except as expressly provided in this Constitution.”
Thus the New Jersey’s lawmaking powers related to the elections are completely vested in the
legislative branch of the government and there is nothing in the New Jersey Constitution which
expressly provides for the Governor to take over the powers of the legislature with regards to the
framing of election laws.
(b)

Executive Order 144, which modified several election related laws related to the time
and manner of holding elections, and which transferred the powers of the NJ Legislature to
the Secretary of State, and which replaced laws passed by the legislature with guidelines
created by the Centers for Disease Control and Prevention and otherfederal and state
government entities, is in violation of the Elections Clause of the United States Constitution
On May 15, 2020, Governor Phil Murphy signed Executive Order 144 (“EO 144”), By issuing

this order, the Governor interfered with and changed several laws related to the time and manner of
holding elections including N.J.S.A. 19:8-4, N.J.S.A. 19:63-9, N.J.S.A. 19:63-22, N.J.S.A. 19:63-18,
N.J.S.A. 19:6-2, N.J.S.A. 19:8-2, N.J.S.A. 19:52-6, N.J.S.A. 19:14-9, N.J.S.A. 19:23-54, N.J.S.A.
19:29-3, N.J.S.A. 19:23-55, N.J.S.A. 19:28-1, N.J.S.A. 19:52-6, N.J.S.A. 19:53B-21, N.J.S.A. 19:53C21, and N.J.S.A. 52:14B-1.
EO 144.(1) provides, “All elections that take place on July 7, 2020, shall be conducted primarily
via vote-by-mail ballots, which will automatically be sent to all “Active” registered Democratic and

10

Republican voters without the need for an application to receive a vote-by-mail ballot.” This is an
instance of the Governor determining the manner of conducting elections through the Executive Order.
EO 144 (14) provides that “the ballot-return deadline inN.J.S.A. 19:63-22 shall be suspended”
and that “[e]very vote-by-mail ballot that is postmarked on or before July 7, 2020, and that is received
by July 14, 2020, at 8:00 p.m. shall be considered valid and shall be canvassed.” By suspending the
ballot return deadline of 48 hours after the election that is specified in N.J.S.A. 19:63-22, and extending
this deadline by five days, EO 144 (14) extended the time of voting through mail-in-ballots by five
days and is hence unconstitutional.
Further, each enumerated point in EO 144 is an unconstitutional action by the Governor that
changes either the time or the manner of holding elections, or both the time and manner of conducting
elections, by modifying or overriding laws created by the legislative branch which are related to the
time and manner of conducting elections.
The Executive Order delegated the power of modifying N.J.S.A. 19:31-21 related to the manner
of conducting elections to the Secretary of State when it stated, “The Secretary of State may modify the
requirements of N.J.S.A. 19:31-21 concerning the use of poll books and the information contained
therein as necessary to address the procedure by which the July 7, 2020 Primary Election will be
conducted under this Order, and the needs resulting therefrom.”
The Executive Order also effectively and illegitimately replaced the powers of the legislature to
determine the time and manner of conducting elections by guidelines of bureaucratic departments such
as the Centers for Disease Control and Prevention, the State Department of Health, and various County
departments of health, when it stated, “Vote-by-mail ballots shall be processed and canvassed in
accordance with guidelines provided by the Centers for Disease Control and Prevention, the State
Department of Health, and the respective county departments of health.”

11

(c)

New Jersey’s Constitution provides the proper mannerfor the Governor to act
whenever public interest shall require such action but the Governor chose to bypass such a
method eventually leading to the violation ofArticle 1 Section 4 of the United States
Constitution
Article IV, Legislative Section 1 (4) of the New Jersey Constitution deals with the manner in

which the Governor could have acted during times of emergency without violating the Constitution
when it provides: “Special sessions of the Legislature shall be called by the Governor upon petition of a
majority of all the members of each house, and may be called by the Governor whenever in his opinion
the public interest shall require.”
If the Governor believed that the public interest required the action of the legislature, nothing stopped
him from calling for a special session of the legislature and working with the legislative branch to
change the law in accordance with the proper procedure without hijacking the powers of the legislature.
(d)

None of the laws granting emergency powers to the Governor which Phil Murphy
claimed granted him the power to take over the powers of the legislature and change election
laws actually grant him such powers; even if they granted him such powers, it would be
unconstitutional
Governor Phil Murphy in his Executive Orders 120 and 144 has listed N.J.S.A. 26:13-1 et seq.,

N.J.S.A. App. A:9-33 et seq., N.J.S.A. 38A:3-6.1, and N.J.S.A. 38A:2-4, and claimed that they grant
him emergency powers that allowed him to pass the two Executive Orders.

If any of these statutes granted the powers of changing election laws and performing the functions of
the legislature to the Governor, they would still be unconstitutional.
In reality, nothing in N.J.S.A. 26:13-1 et seq., N.J.S.A. App. A:9-33 et seq., N.J.S.A. 38A:3-6.1, or
N.J.S.A. 38A:2-4 can be construed as either transferring the power of the legislature to the Governor in
times of emergencies or granting the power to the Governor to unilaterally frame election laws for the
state of New Jersey.

12

N.J.S.A. 26:13-1 deals with the powers of the Commissioner of Health and Senior Services during a
public health emergency such as directing health care workers and registered support services
personnel, safe disposition of human remains, making a determination to investigate any deaths, and
perform similar related functions. The Governor’s Executive Orders includes declaring the health
emergency, describing the nature of emergency and the geographic area subject to the declaration,
impacting reimbursement claims, and exercising the powers of the Commissioner of Health and Senior
Services if a disaster has been declared.
N.J.S.A. App. A:9-33 describes the objective of the civilian defense act and disaster control act using
the words, “The purpose of this act is to provide for the health, safety and welfare of the people of the
State of New Jersey and to aid in the prevention of damage to and the destruction of property during
any emergency.” Elections have nothing to do with property damage or destruction, and nothing in the
portions that follow this statement of purpose grant to the Governor the rights of changing election laws
or taking over the functions of the legislature. An example of powers under N.J.S.A. App. A:9-33
would be for the Governor to determine the control and direction of the flow of vehicular traffic on any
State or Interstate highway, and its access roads, including the right to detour, reroute or divert any or
all traffic, and to prevent ingress or egress from any area to which the declaration of emergency
applies, but there is nothing to let the Governor change the law to determine the time and manner in
which elections prescribed by the United States Constitution are conducted.
N.J.S.A. 38A:3-6.1 grants the power to “order to active duty, with or without pay, in State service, such
members of the New Jersey National Guard, that in his judgment are necessary to provide aid to
localities in circumstances which threaten or are a danger to the public health, safety or welfare” and to
“authorize the employment of any supporting vehicles, equipment, communications or supplies as may
be necessary.”
N.J.S.A. 38A:2-4 is the power to order militia to active duty.

13

(e)

Supreme Court Precedent (Arizona State Legislature v. Arizona. Independent
Redistricting Commission) supports case for declaring the Governor’s actions
unconstitutional

In Arizona State Legislature v. Arizona. Independent Redistricting Commission, the Supreme Court
citing Smiley v. Holm stated:
Lawmaking, we further noted, ordinarily “must be in accordance with the method which
the State has prescribed for legislative enactments.”
The Supreme Court further added:
Nothing in the Elections Clause, we said, “attempt[ed] to endow the legislature of the State
with power to enact laws in any manner other than that in which the constitution of the
State ha[d] provided that laws shall be enacted.” Id, at 368.
The State of New Jersey has not prescribed lawmaking to be in the form of arbitrary decrees issued by
the Governor based on his own imagination that the emergency powers allow him to usurp the powers
of the legislature and change the election laws.
IV.
EXECUTIVE ORDER 144 OF THE NEW JERSEY GOVERNOR, THE
PRIMARY ELECTION BASED ON IT, AND THE INCLUSION OF NOMINEES
FROM THE PRIMARY ELECTION ON THE BALLOT FOR THE GENERAL
ELECTION VIOLATE THE DUE PROCESS CLAUSE OF THE UNITED STATES
CONSTITUTION
Executive Order 144, by upending the power of the New Jersey legislature and replacing the election
for the offices of the U.S. Senator and the members of the House of Representatives by an election
created by the executive order, deprived the petitioner from participating as a candidate as well as from
voting as a voter in a lawfully created election created by the New Jersey legislature. The Executive
Order, the election it created, and the results of the election violate both the Substantive Due Process
rights and the Procedural Due Process rights of the Petitioner and are all unconstitutional. Any
inclusion of the results of the primary election on the ballots for the general election to be held on
November 3, 2020 would also be unconstitutional.

14

In Reynolds v. Sims, 377 U.S. 533 (1964), the U.S. Supreme Court quoted from United States v.
Classic, 313 U.S. 299, 313 U.S. 315, "Obviously included within the right to choose, secured by the
Constitution, is the right of qualified voters within a state to cast their ballots and have them counted."
In the current context, the act of casting ballots refers to an election created by the legislature in
accordance with the Constitution and that right has been taken away as the primary election of July 7,
2020 was not constitutional.
Additionally, the cease and desist letter of the Attorney General amounted to election interference as it
interfered with the Petitioner’s campaign communications, and is hence in violation of the Due Process
Clause.
V.

THE NEW JERSEY ATTORNEY GENERAL’S LETTER IS IN VIOLATION OF
THE FREE SPEECH CLAUSE OF THE UNITED STATES CONSTITUTION
The New Jersey Attorney General’s letter in Exhibit B to Singh Declaration is in violation of

the Free Speech Clause of the U.S. Constitution as it had the effect of chilling the free speech rights of
the Petitioner and his campaign by getting them to stop regular campaign communication and instead
redirect their resources to researching the law and dealing with the negative effects of the letter. This
letter continues to cause harm to the Petitioner and other voters as it has the effect of falsely informing
voters that they may not replace their vote.
In Mills v. Alabama, the U.S. Supreme Court held that “no test of reasonableness can save a
state law from invalidation as a violation of the First Amendment when that law makes it a crime for a
newspaper editor to do no more than urge people to vote one way or another in a publicly held
election.” That holding is applicable in this case to the Petitioner and the Attorney General’s letter must
be declared as having violated the Free Speech Clause of the First Amendment.

15

VI.
THE MAIL-IN BALLOT SYSTEM VIOLATES THE FREEDOM OF
INFORMATION ACT AS IT APPLIES TO THE POSTAL SERVICE WHICH IS A
COMPONENT IN WHAT SHOULD BE A TRANSPARENT GOVERNMENT
PROCESS

While Article II (4) of the New Jersey Constitution grants the legislature the power to provide for
absentee voting by members of the armed forces, and while this process is well defined and based on
members of the armed forces requesting absentee ballots, the same is not true for the general mail-inballot system created through Executive Order 144. The lack of proper definition of the entire process
from end to end for the mail-in-ballot system, with many unknowns especially when the chain of
custody of the ballots passes to the United States Postal System, means that a large part of the election
process is out of control of the State of New Jersey and it is impossible to obtain proper information
about the election process. As the United States Postal Service is a federal entity that derives its power
from the United States Constitution, the Freedom of Information Act is applicable to it. Petitioner Hirsh
Singh’s case of contacting post offices, as described in the section on facts in this Motion, is evidence
of such impossibility and only underscores the problems with the mail-in ballot system. Unlike in the
case of the armed services personnel where the voters request absentee ballots leaving a paper trail, it is
not possible to determine what occurs in the mail-in system created by EO 144. The lack of ability to
obtain information and the lack of proper government procedures to obtain such information makes the
mail-in voting system an opaque process and hence it is in violation of the Freedom of Information Act.
The lack of information on proper procedures to obtain information on how to request records from the
Post Office means that the mail-in ballot system violates 5 U.S. Code § 552 (a)(1). The lack of
production of records by USPS is a violation of 5 U.S. Code § 552 (a)(3)(A) as all communication with
the postmasters as well as the state representative occurred on July 22, 2020 or prior to that date, and
there has been no response from them so far.

16

VII.
PETITIONER DID NOT WAIT UNTIL THE EVE OF ELECTION; IT IS THE
DEFENDANTS WHO OBSTRUCTED THE PETITIONER’S EFFORTS AND WASTED
TIME; YET IT IS STILL NOT THE EVE OF THE ELECTION; PRECEDENTS
FAVOR PETITIONER’S ARGUMENTS BOTH ON TIME AND VOIDING THE
PRIMARY
Petitioner’s actions were timely and in good faith. Defendants’ actions were malafide and caused
delays: Defendants are squarely to blame for obstructing the efforts of the Petitioner and causing
delays. At all points in time. Petitioner has acted in a timely fashion. Upon learning of various
irregularities, the Petitioner sent emails to the Secretary of State’s office as early as July 17.
Petitioner filed for recounts as early as July 24. It was the Attorney General’s office that interfered in
several counties and blocked this process. It is due to their efforts that the decision on recounts have not
been arrived at yet, and Sussex County only gave their decision on August 20. Even after filing this
complaint, the Attorney General’s office has shown no sense of urgency and has attempted to slow
down the process despite claiming that they believe this matter is time sensitive.
It is also the fault of the Defendants that the illegitimate primary election was certified only on August
9. It is for them to create a process that includes the granting of sufficient time to candidates who wish
to challenge the election results. Petitioner cannot be held responsible for the failure of Defendants.
Some actions resulting in injury to the Petitioner occurred after the elections and are ongoing injuries.
They are the inclusion of his opponent’s name on the ballot despite his opponent not winning an
election sanctioned by the legislature, and the injury due to the violation of the Freedom of Information
Act.
None of the cases cited by the Defendants include an unconstitutional action, and none of them include
a challenge to an unauthorized election, the result of which is used in a general election.
Unsurprisingly, when the Defendants quote from Purcell v. Gonzalez, they changed the meaning of a
sentence by snipping out the key words “especially conflicting orders.” The original sentence read,
“Court orders affecting elections, especially conflicting orders, can themselves result in voter

17

confusion and consequent incentive to remain away from the polls.” (words snipped out by the
Defendants are emphasized). The solution is for the court not to issue conflicting orders.
The passage of time is clearly to the advantage of the State Defendants and to the disadvantage of the
Petitioner. It is therefore disingenuous on the part of the Defendants to accuse the Petitioner of delays
when it is the Defendants who have used delaying tactics. The election was more than 60 days away as
of the date of filing with the court and more than 40 days away when all necessary filings for summary
judgment were submitted and the court still has time to stop the unconstitutional actions and ensure that
the election is conducted in accordance with the law.

Precedents support Petitioner’s claim on the remedy as well as time: Defendants are also wrong that the
relief sought goes against all prior case law. In a previous lawsuit, the Superior Court ruled, “New
Jersey's election laws require that respondent's certificate of election be annulled, that the election be
set aside, and that a new election be held in November 2012.” In re Contest of November 8, 2011
General Election of Office ofN.J. General Assembly, Fourth Legislative Dist., All N.J. Super. 410, 486
(N.J. Super. 2012).
In that case, even though the challenge was brought after the election, the court ruled:
Respondent also argues that petitioner Shelley Lovett's post-election challenge comes too late
and seeks the wrong remedy... Although petitioner's challenge did not come too late, she
does request the wrong remedy, (emphasis added)
In re Contest ofNovember 8, 2011 General Election of Office ofN.J. General Assembly, Fourth
Legislative Dist., 427 N.J. Super. 410, 418 (N.J. Super. 2012).
Likewise, on October 2, 2002, the Supreme Court of New Jersey ruled that there was sufficient time to
replace the name of Robert G. Torricelli by the name of a candidate to be selected by the Democratic
Party. In its opinion, the Supreme Court stated:
On the record before the Court, and with due regard to the representations of the Attorney
General and counsel for the county clerks at oral argument, we find that there is sufficient time
before the general election to place a new candidate's name on the ballot. In respect of absentee
voters, particularly military and civilian New Jersey citizens dwelling abroad, we are informed

18

that of approximately 19,000 absentee ballots authorized as of October 2, 2002, some 1,700 had
been mailed and few had been returned. We are also informed that if the printing of new
absentee ballots was expedited, most could be prepared and mailed within five business days.
We understand that express mailing, both outgoing and return, is available to and from most
overseas locations, and that if a source of funding for those activities is available, they can be
carried out expeditiously.
New Jersey Democratic Party, Inc. v. Samson, 814 A.2d 1028, (N.J. 2002) 175 N.J. 178
The same opinion also states that the printing of ballots was stayed by the court, On September
30, 2002, Senator Robert G. Torricelli announced his withdrawal as the New Jersey Democratic
Party's candidate for the United States Senate in the November 5, 2002, general election...

Also on October 1, 2002, the trial court issued an Order to Show Cause and stayed the printing
of the ballots for the general election. Id.
The fact that the court issued its order staying the printing of ballots only on October 1, and issued its
order permitting the replacement of the name of the candidate on October 2 for the general election to
be held on November 5 of that year demonstrates that there is still sufficient time to remedy the
outcome of the unconstitutional and illegal election processes in this case.
The Petition shows malconduct. fraud and corruption at all levels, and Defendants are wrong in
claiming that the Secretary of State is exempt from such charges which apply only to lower level
election workers
By arguing that the constitutional claims must not be considered, Defendants make an innovative
argument that the terms misconduct, fraud and corruption apply only to the actions of low level
election workers and do not apply to the misconduct, fraudulent actions, and the corruption of the
Secretary of State who is the highest level official in charge of conducting elections.
They argue that any unconstitutional act by the Secretary of State is exempt from the purview of the
terms malconduct, fraud and corruption described in NJSA 19:29-l(a).
By ignoring the sanctity of the legal and constitutional election authorized by the legislature, and
instead combining it with an illegal and unconstitutional election, the Secretary of State indulged in
misconduct and committed fraud on the candidates as well as the voters of the state of New Jersey. The

19

correct response by the Secretary of State to the Governor’s illegitimate Executive Order 144 was to
ignore it and continue with the legal and constitutional election which was already underway.

The certification of the primary election by the Secretary of State is improper; it is of no moment
that the Board of Canvassers did not meet
Defendants present an argument that the Board of Canvassers do not meet during a primary election,
but miss the point that the certification of the election by the Secretary of State before the counting was
complete is, and continues to be, illegal. This allegation has been properly made under 19:29-1(a) and
is also properly challenged in the Petition under 19:22-3.

Defendants quibble on the language in 19:29-l(fl; Injury for legal standing purposes occurred
only upon certification, vet the Petitioner complained as early as July to the Secretary of State
about ongoing fraud: estoppel is inapplicable for mistakes of the law and where Petitioner had no
role; Petitioner signed up for a legal election and not the illegal one
Defendants quibble about language but the required language is part of the Petition: Defendants
complain that the petition does not use the words “upon information and belief’ but the verification
section on page 49 (FIRST AMENDED VERIFIED PETITION TO CONTEST THE PRIMARY
ELECTION) has the statement, “I have read the contents of the Petition and incorporate same by
reference and state that the contents herein are true to the best of our knowledge, information and
belief.” Additionally, these words also appear within the main body of the Petition. Many of the points
in the Complaint are based on the much stronger foundation of personal knowledge as the petitioner
provides first hand information under oath.
There were two elections in parallel: A legal election with In-Person voting sanctioned by the
legislature, and an illegal election with mail-in-ballots based upon EO 144
It should be noted that there were in fact two elections going on at the same time. One was an election
on July 7, 2020 sanctioned by the legislature while the other was a mail-in election created by

20

Executive Order 144 which was illegal. Petitioner did not use the mail-in system to cast his vote but
went in person to the County Clerk’s Office.
The traditional estoppel principles favor the Petitioner: All the traditional principles of estoppel
actually favor the Petitioner. These principles are (i) the government knew the facts (ii) the government
intended that its conduct be acted upon or be acted in such a way that the Petitioner had a right to
believe the government so intended (iii) the Petitioner was not aware of the true facts (iv) the Petitioner
detrimentally relied upon the government’s conduct. See USA Petroleum Corp. v. U.S., 821 F.2d 622,
627 (Fed. Cir. 1987); American Electronic Lab., Inc. v. U.S., 774 F.2d 1110, 1113 (Fed. Cir. 1985);
Broad Avenue Laundry & Tailoring v. U.S., 681 F.2d 746, 749 (Ct. Cl. 1982); Emeco Indus., Inc. v.
U.S. 485 F.2d 652, 657 (Ct.Cl. 1973); Manloading & Mgt. Assoc., Inc. v. U.S., 461 F.2d 1299, 1303
(Ct. Cl. 1972).
Petitioner was not consulted and had no role in the conduct of the illegal election: Defendants purport
to read the mind of the Petitioner and cite from other lawsuits and use the words, “voluntary conduct of
a party” and “prevent injustice by not permitting a party to repudiate a course of action on which
another party has relied to his detriment” to argue for estoppel, but this argument fails at many levels.
First, the Petitioner did not sign up for the unauthorized election but the legal election. The deadline for
signing up for the legitimate election sanctioned by the legislature was March 30, 2020 which was met
by the Petitioner. The Executive Orders for the illegal election were passed after this date. The
inclusion of the Petitioner’s name in the unauthorized election based on EO 144 was without any
consultation with him and he himself had no idea of the nuances of the actions of the office of the
Secretary of State in duplicating the names of the candidates in the legal election to the mail-in ballots
of the illegal one. It is patently dishonest to claim that it was “voluntary conduct” on the part of the
Petitioner when the Petitioner gathered signatures for the legitimate election and was under the
impression that he would get to participate in a legitimate election.

21

Secondly, the Defendants did not “rely on” (whether to their detriment or otherwise) Petitioner Singh’s
decision or actions before going ahead with the parallel illegal election. That decision by the
Defendants was a unilateral one without the Petitioner having any say in it. Defendants decided to go
forward with it and the Petitioner’s position was not a factor in the decision of the Defendants. Thus it
is dishonest to claim that Defendants relied on the Petitioner to conduct the illegal election. Defendant
Murphy did not consult the Petitioner before passing Executive Order 144. (Second Singh
Declaration)
Detriment was the other wav round with Petitioner not being given full facts, and even the legislature
realized the full facts only in late August while the Defendants possessed full facts: It was the
Petitioner who was made to act in the manner the government intended him to act by making him
participate in the illegal election while his intent was to participate in the legal election. Petitioner was
not in possession of all the facts surrounding the election processes that the government possessed, and
Petitioner was made to act in a manner detrimental to him. Even the New Jersey Assembly was not
aware of the unconstitutional nature of the actions of the Defendants and they only fixed it in late
August and passed legislation to match similar the Executive Orders similar to EO 144 for the General
Election EO 177 & EO 179 so as to permit mail-in ballots for the general election of November 3.
Petitioner cannot be blamed for learning after the legislature that there existed an underlying
unconstitutionality to the injustice which was already opposed by him for other reasons, and acting
within a week of the legislature’s actions. In any case, this action was timely too and well in advance of
the general election as described in a later section.
Estoppel does not apply to mistakes of law: The election based on EO 144 is clearly a mistake of the
law and the government is clutching at straws by trying to disenfranchise millions of voters in the state
of New Jersey by asking that there be no challenge against the illegal election. The simple remedy is
either to count only the ballots cast in person on July 7, 2020 along with the absentee ballots cast by
members of the armed forces, or conduct a new election. In either case, the inclusion of the candidates

22

nominated through the illegal election on the ballots for the general election of November 3, 2020 must
be stopped. Instead, Defendants ask this court to legitimize the illegal election and accept the mistake
of the law thus imposing on millions of voters the results of an undemocratic, unconstitutional, and
arbitrary nomination process.
Injury began only after July 7 due to mixing of results from the legal and illegal elections, and
fraudulent activities even by the State’s own standards occurred, and Petitioner objected to the
Secretary of State’s Office as early as July 17: Petitioner first objected to the illegitimate activities
related to the election by sending emails to the Secretary of State’s office, Attorney General’s office,
and all Boards of Elections on July 18 but did not receive any response.
(See Exhibit E to Second Singh Declaration)

VIII.
DEFENDANTS ARE WRONG TO OPPOSE THE COMPLAINT BEING A
CONSOLIDATED ONE, THE CONSTITUTIONAL CLAIMS ARE CLEARLY WITHIN
THE PURVIEW OF DISPUTES RELATED TO NJSA 19:29-1, AND COURTS HAVE A
HISTORY OF ADDRESSING THEM
Defendants do not offer any arguments on the merits of the claims based on the federal and
Constitutional laws, but merely complain that the First Amended Petition is a consolidated case that
deals with multiple election related matters and wrongly object to considering the federal and
constitutional matters as part of this election contest. First, the decision to consolidate all election
related claims was made by the judiciary and not the Petitioner. Defendants also erroneously argue that
this case must narrowly deal with the allegations of fraud against the low level election workers to the
exclusion of fraud by the Secretary of State which would be the case if Constitutional claims are not
considered. In making their argument, Defendants have omitted a key sentence from Iannone v.
McHale, 245 N.J. Super. 17, 31 (App. Div. 1990)., the case they cite. The full quote that is relevant is as
follows:

23

Defendants make much of what they assert to have been an improper joinder of election
contest issues with tort and civil rights causes attended by damages claims. We assume
they are correct that a statutory election-contest petition pursuant to N.J.S.A. 19:29-1, because
of the need for swift deposition, may not be joined with other claims, (emphasis added)
That court was clearly talking about tort and civil rights causes attended by damages claims. All
election related challenges have been consolidated by this court and they must include Constitutional
and Federal claims challenging the validity of the election. Defendants try to make the fantastic
interpretation that Constitutional claims related to the election are not encompassed by the word
‘legally’ which is present in the language of NJSA 19:29-1 (a). To claim that the United States
Constitution should not be considered to be part of the word ‘legal’ is clearly a false claim.
In fact, the judiciary in New Jersey has a history of hearing and ruling upon Constitutional claims in the
context of election contests. See In re Contest ofNovember 8, 2011 General Election of Office ofN.J.
General Assembly, Fourth Legislative Dist., 427 NJ Super. 410, 48A.3d 1164 (N.J. Super. 2012), in
which the court ruled upon the constitutionality of the residency requirement for candidates under the
Equal Protection Clause.
This is no surprise as in Magura v. Smith, the court took a broad view of the term malconduct and
stated, “This position takes an expansive view of "malconduct" interpreting that term to mean a failure
to follow affirmative statutory requirements and not "bad" or illicit conduct. Such a reading was
adopted in Richards v. Barone, 114 N.J. Super. 243 (Law Div. 1971)” Magura v. Smith, 131 N.J.
Super. 395, 399 (N.J. Super. 1974).
To quote from In re Contest ofNovember 8, 2011 General Election of Office ofN.J. General Assembly,
Fourth Legislative Dist., 427 N.J. Super. 410, 486 (N.J. Super. 2012):

On December 1, 2011, petitioner filed a petition pursuant to N.J.S.A. 19:29-1...
This court is also aware that a special election, even when conducted with a general election,
entails effort and expense. This court also appreciates the uncertainty and disruption that may
result.
This court’s obligation, however, is to apply the United States Constitution, the New
Jersey Constitution, and New Jersey's election laws. The New Jersey Constitution set a

24

qualification for election that respondent did not meet. The United States Constitution does not
invalidate that qualification. New Jersey's election laws require that respondent's certificate of
election be annulled, that the election be set aside, and that a new election be held in November
2012.
(emphasis added)
It is thus clear that courts have an obligation to apply the United States Constitution, the New Jersey
Constitution and New Jersey’s election laws in contests brought under NJSA 19:29-1.

IX. PETITIONER WINS IF ONLY CONSTITUTIONAL BALLOTS ARE COUNTED;
UNLIKE EO 144 BASED BALLOTS, ABSENTEE BALLOTS ARE GOVERNED BY
EXISTING FEDERAL LAWS AND ARE NOT CHALLENGED IN THIS ACTION BUT
IF THIS LAWSUIT RESULTS IN THE AUDIT OF THAT PROCESS, IT WILL
BENEFIT THE COUNTRY
Petitioner Wins if only Constitutionally Valid votes are Counted
Petitioner has obtained information related to the breakdown of provisional ballots (in-person ballots)
and mail-in ballots from Atlantic, Cape May, Cumberland, Salem, Gloucester, Camden, Burlington,
Ocean, Monmouth, Mercer, Middlesex, Somerset, Hunterdon, Warren, Morris, Union, Hudson, Essex,
Sussex, Passaic and Bergen counties. Considering only the provisional ballots (Constitutionally valid
ballots) in these counties puts Petitioner Hirsh Singh in the lead with 19104 votes and the candidate
with the next highest number of Constitutionally valid votes, Rik Mehta, gets 12072 votes. Three other
candidates, Tricia Flanagan, Natalie Rivera, and Eugene Anagnos get 6084, 2144, and 1044 votes
respectively. (Third Singh Declaration). No breakdown of provisional ballots and mail-in ballots has
been posted on the websites of the clerks of Cape May, Salem, Gloucester, Mercer, Middlesex,
Somerset, Warren and Hudson counties. (Third Singh Declaration).
The results in three counties - Essex, Salem and Morris - also show a reversal in the results with
Petitioner Hirsh Singh winning them if only the Constitutionally valid ballots are counted.
Although this is sufficient reason to order all other counties which have withheld the breakdown
of their ballots according to provisional ballot type and mail-in ballot type, and order a recount based
solely on the Constitutional validity of the ballots, and although Petitioner is confident that he will

25

emerge victorious if such an exercise is carried out, Petitioner acknowledges that millions of voters in
the state who voted in good faith using the unconstitutional mail-in ballots would be disenfranchised,
and admits that a better solution would be for the court to declare the entire primary election null and
void and hold it again.

Unlike Mail-in ballots, the Tracking of Ballots in the Absentee Ballot System is Governed by
Federal laws and a FOIA Based Ruling Will Not Affect Them: Absentee Ballot System Is Clearly
Not A Matter for This Court to Address

Unlike in the case of the mail-in ballots which have no federal laws and procedures supporting
them, the absentee ballot system is governed by federal laws that ensure the privacy of voters and also
mandate for the ability to track the ballots. The Uniformed and Overseas Citizens Absentee Voting Act
(UOCAVA) was passed in 1986, and expanded significantly in 2009, when Congress passed the
Military and Overseas Voter Empowerment (MOVE) Act. The Help America Vote Act of 2002 created
the Election Assistance Commission which certifies voting systems and audits election processes. The
MOVE Act has a requirement to “allow UOCAVA voters to track the receipt of their absentee ballots
through a free access system.” None of these federal laws apply to the mail-in ballot system created by
the Executive Order 144 of Governor Phil Murphy.
Petitioner has already provided to this court an Exhibit in the form of a photograph where the
mail-in ballots in a tray were lying in the open without any supervision outside of a Board of Elections
in Burlington County. Clearly, that photograph is evidence that the lack of procedures to govern the
mail-in ballot system has resulted in the lack of integrity of the mail-in ballot system. In a clear
violation of the Freedom of Information Act (FOIA), the post offices too had no idea about the
procedures and have been unable to provide information either regarding the data or regarding the
procedures for tracking ballots as already described earlier.

26

However, it must be added that if a favorable ruling in this lawsuit triggers an audit process for
the absentee ballot system, that can only benefit the country.
Since Defendants provide no arguments on the merits of the federal and Constitutional claims, the
Motion for Summary Judgment should be granted immediately.

X.

SUMMARY JUDGMENT

The Standard for Summary Judgment is that the court shall grant summary judgment if the
movant shows that there is no genuine dispute as to any material fact and the movant is entitled to
judgment as a matter of law. Nothing in the section challenging the legitimacy of the election for
violating Article 1 Section 4 of the U.S. Constitution or with the Due Process Clause deal with material
facts but is based purely as a matter of law. The facts listed in the sections on the violation of
Petitioner’s rights under the free speech clause and Defendants’ violation of the Freedom of
Information Act are undisputed.
(a)

The General Election ofNovember 3, 2020 would be an illegitimate and
unconstitutional election if it included candidates chosen through an unconstitutional
process
The General Election of November 3, 2020 would be an unconstitutional election if candidates

chosen through an unconstitutional mechanism created by the unconstitutional Executive Order 144
were permitted to run in the election.

(b)

The entire primary election process including the primary election of each political
party and the nomination of independent candidates through EO144 must be declared null
and void; partial nullification would be in violation of the Equal Protection Clause
The nomination of candidates for Senate and the House of Representatives - from every

political party including the Republican Party and the Democratic Party, as well as independents - for
the general election to be conducted on November 3, 2020 through the primary election conducted on

27

July 7, 2020 based on EO 144 is unconstitutional. The primary election of each political party and the
nomination of independent candidates based on EO 144 must be declared null and void.
Declaring the primary election for the Republican candidate null and void without doing the
same for the Democratic Party candidate or the candidates from other political parties or candidates
who are independents would not only be an endorsement of the unconstitutional actions of the
Governor, but would also violate the Equal Protection Clause and give an unfair advantage to the
Democratic Party who would be able to prepare for the general election while the Republican Party was
still caught up in the process to determine their candidate.
For the above reasons, Plaintiff seeks Summary Judgment and requests the court to:
i.

Declare the Executive Order 144 issued by Governor Phil Murphy to be unconstitutional and in
contravention of the Elections Clause and the Due Process of the United States Constitution

ii. Restore the status quo ante as to the manner of conducting elections
iii. Declare the primary election of July 7, 2020 for all political parties unconstitutional and hence
null and void
iv. Forbid the use in the General Election of ballots with names of candidates nominated through
the process of the unconstitutional primary election created through the Executive Order 144 of
Governor Phil Murphy
v. Direct the state of New Jersey to conduct fresh primary elections in accordance with the law for
all races to fill up the offices of Senators and Representatives mentioned in the Elections Clause
of the U.S. Constitution
vi. Declare the cease and desist letter sent by New Jersey’s Attorney General to be election
interference and in violation of the due process clause

28

vii. Declare the cease and desist letter sent by New Jersey’s Attorney General to be in violation of
the free speech clause
vin.

Direct the Attorney General’s office to rescind the letter and clarify that they were in

violation of the Constitution and admit that the Petitioner acted in accordance with the
Constitution and all laws
ix. Declare the entire system of mail-in ballots except as provided by previously defined
procedures for the absentee ballots to be issued to the members of the Armed Forces to be in
violation of the Freedom of Information Act
x. Issue an injunction forbidding the use of the mail-in ballot system for the general election of
November 3, 2020

29

APPENDIX 5
Defendants’ Brief to the Superior Court,
Appellate Division (October 13, 2020)

State of New Jersey
Philip D. Murphy

Gurbir S. Grewal

Office of the Attorney: General
Department of Law and Public Safety
Division of Law
25 Market Street .

Governor

Sheila Y Oliver
Lt. Governor

Attorney General

Michelle L. Miller
Director

PO Box 112
Trenton, NJ 08625-0112

October 13, 2020
Joseph H. Orlando, Clerk
Superior Court of New Jersey
Appellate Division
P.0. Box 006
Hughes Justice Complex
Trenton, New Jersey 08625
Re:

Hirsh Singh v. Hon. Philip D. Murphy, et al.
Docket No. A-323-20
Constitutional Challenge to Executive Order No. 144
Letter Brief of Respondents,
Governor Murphy
Secretary Way, in Opposition to the Appeal '

and

:Dear Mr. Orlando:
Please accept this letter brief on behalf of Respondents,
Governor Murphy and Secretary Way, in response to the challenge to
Executive Order 144.

(App. Div. Oct. 5, 2020 Order).

This court

should reject this constitutional challenge to this year's Primary
Election, which Petitioner filed only after it had concluded.And
even if this court reaches the merits, this court must reject the
baseless challenges to Executive Order 144.

Hughes Justice Complex • Telephone: (609) 376-2955 * Fax: (609) 633-8702
New Jersey Is An Equal Opportunity Employer • Printed on Recycled Paper and Recyclable

October 13, 2020
Page 2
TABLE OF CONTENTS
PRELIMINARY STATEMENT

2

PROCEDURAL HISTORY AND STATEMENT OF FACTS

4

ARGUMENT
Point I:
THIS BELATED CHALLENGE TO THE PRIMARY ELECTION IS
BARRED UNDER EQUITABLE ESTOPPEL AND LACHES......................

6

Point II:
THE.PRIMARY ELECTION WAS VALID AS EXECUTIVE ORDER 144
DID NOT VIOLATE THE UNITED STATES CONSTITUTION.............

11

A. EO 144 Did Not Violate the Elections Clause

11

B. The Remaining Constitutional Claims Are Baseless

18
20

CONCLUSION
Preliminary Statement

Faced with the spread of a virus that has already claimed the
lives of .200,000 Americans and over 14,000 New Jersey residents,
New Jersey enacted a number of changes to the operations of this
year's elections.

As the Governor explained, these changes were

necessary to ens.ure that no voter was faced with choosing between
their health and their right to vote, including elderly voters and
at-risk voters, and to ensure that election officials could run an
election safely and effectively.

To that end, on May 15, 2020,

the Governor announced that the July 7, 2020 Primary Election would
be conducted primarily by mail.

That order went unchallenged, and

the Primary Election was conducted successfully on July 7.

October 13, 2020
Page 3
Having finished second in his effort to obtain the Republican
nomination for United States Senate, Hirsh Singh is now challenging
the validity of Executive Order 144.

But as courts have long held,

equitable doctrines preclude late-filed constitutional challenges
to elections rules.

Singh had ample opportunity to seek to enjoin

Executive Order 144 from taking effect before the Primary Election
occurred but he did not do so, engaging instead in a form of headsI-win-tails-you-lose gamesmanship: try to prevail in the election
and seek to throw it out if not.
uniformly reject such tactics:
elections.

There is a good reason the courts
they work major disruption in State

At this point, under New Jersey law, the ballots for

the General Election have been printed and mailed the voters, and
over half a million voters have already cast ballots.

And federal

law requires the General Election be complete by November 3, 2020.
Singh cannot.be granted relief at this late hour.
Although there is no reason for this court to reach the merits
of Singh's claim, his constitutional challenges notably also lack
merit.

As every court to consider this claim found, the Elections

Clause of the Constitution does not bar a governor from exercising
the authority delegated to him by the legislative branch to expand
voter access through vote by mail during a public health emergency.
That makes sense: the Elections Clause sought to empower states to
oversee elections, not to control the distribution of authority in
a state, let alone in the midst of an emergency.

This court should

October 13, 2020
Page 4
decline to be the first to overturn longstanding Elections Clause
precedent and to hobble the State's emergency response.
Procedural History and Statement of Facts1
Coronavirus Disease 2019 ("COVID-19") is a highly contagious,
deadly disease without a vaccine or cure and has claimed the lives
of

over

200,000

residents.

Americans,

including

See Exec. Order No.

186

over

14,000

(Sept. 25,

New

2020).2

Jersey
As this

crisis began to unfold, on March 9, 2020, Governor Murphy invoked
the statutory powers vested in him by our Legislature under the
Civilian Defense and Disaster Control Act ("CDDCA"), N.J.S.A. App.
A:9-30 to -63, and Emergency Health Powers Act ("EHPA"), N.J.S.A.
§§ 26:13-1 to -31, and declared a State of Emergency and a Public
Health Emergency.

See Exec. Order No.

103

(Mar.

9, 2020).3

As

the spread of the virus continued, the Governor declared the Public
Health Emergency continues to exist every thirty days, as required
by law.

See, e.g., Exec. Order No. 186 (Sept. 25, 2020).

On April 8, 2020, Governor Murphy issued Executive Order 120,
which moved the Primary Election from June 2,
2020.4

2020 to July 7,

Thereafter, on May 15, 2020, the Governor issued Executive

Order 144. ("EO 144"), which ordered that the July 7, 2020 Primary
Election was to be conducted primarily via vote by mail.

EO 144

1 Because they are closely related, the procedural and factual
histories are combined for efficiency and the court's convenience.
2 Available at nj.gov/infobank/eo/056murphy/pdf/EO-186.pdf.
3 Available at nj.gov/infobank/eo/056murphy/pdf/EO-103.pdf.
4 Available at nj.gov/infobank/eo/056murphy/pdf/EO-120.pdf.

October 13, 2020
Page 5
at I 1.5

EO 144 explained that the State was making these changes

to ensure that voters, candidates, political parties and election
officials could effectively participate in free and safe elections
while protecting New Jersey residents from the dangers of COVID19.

Id. at 2.

No party filed a legal Challenge to EO 144 before

July 7, 2020, and the election was conducted primarily by mail.
In the Primary Election, Singh sought the Republican Party's
nomination for United States Senate and was on the ballot in each
county.

(MRS-L-1757-20, Trans ID: LCV20201616572 at II).6

Singh

received a total of 146,133 votes, while Rikin Mehta received a
total of 154,817 votes.

Ibid.

After losing the election, on July

24, 2020, Singh filed petitions in every single county for a hand
recount and recheck.
7) .

(MRS-L-1757-20, Trans ID: LCV20201616572 at

The majority of these petitions have been heard and denied by

Superior Court Judges across the State.

They resulted in a recount

in only two election districts in Sussex county,

(SSX-L-304-20,

Trans ID: LCV20201407950), which did not change the results.
(MRS-L-1757-20, Trans ID:
Thereafter,
election contest.

See

LCV20201637567 at 5) .

on September 1,
(MRS-1757-20,

2020,

Singh filed a state-wide

Trans ID:

LCV20201591415).

On

September 14, 2020, Singh amended his Petition and filed a motion
for partial summary judgment, challenging EO 144 as violative of
5 Available at nj.gov/infobank/eo/056murphy/pdf/EO-144.pdf.
6 Available at nj.gov/state/elections/assets/pdf/electionresult s/2020/2020-official-primary-resuits-us-senate.pdf.

October 13, 2020
Page 6
the U.S. Constitution.

(MRS-L-1757-20, Trans ID: LCV20201616572;

Respondents argued Singh's motion for partial

LCV20201616797).

summary judgment was procedurally improper as it sought to use an
election contest as a substitute for filing a proper challenge to
(MRS-L-1757-20, Trans ID: LCV20201637567 at 20-23).

EO 144.
On

September

A.J.S.C.,

30,

sua sponte,

2020,

the

Honorable

Stuart

Minkowitz,

transferred this matter to the Appellate

Division under Rule 2:2-3 (a) (2) because "challenges to executive
orders

exceed

court]."

the

subject

(MRS-L-1757-20,

matter

jurisdiction

of

Trans ID: LCV20201731882).

[the

trial

The State

now responds to the constitutional challenge to EO 144.
ARGUMENT
POINT I
THIS BELATED CHALLENGE TO THE PRIMARY ELECTION IS BARRED
UNDER EQUITABLE ESTOPPEL AND LACHES
This court should reject Singh's challenge without reaching
the merits because he did not challenge EO 144 before the Primary
Election, and only does so when the General Election is underway.
Even were his claims to have merit (and they do not, see Point II,
infra), granting relief now would produce untenable results.
The doctrines of equitable estoppel and laches preclude the
assertion of late-filed claims that work prejudice if successful.
As to the former, estoppel "prevent[s] injustice by not permitting
a party to repudiate a course of action on which another party has

October 13, 2020
Page 7
relied to his detriment."
(2003).

Knorr v.

Smeal,

178 N.J.

169,

178

Equitable estoppel applies if the "voluntary conduct of

a party" precludes him or her from "asserting rights which might
perhaps have otherwise existed ... as against another person,
W.V. Pangborne

who has in good faith relied upon such conduct."
& Co. v. New Jersey Dep/1 of Transp.,

116 N.J.

543,

553

(1989).

And laches operates in a similar manner: it "is invoked to deny a
party enforcement of a known right when the party engages in an
inexcusable and unexplained delay in exercising that right to the
prejudice of the other party."

Knorr,

178 N.J. at 178.

Laches

bars a claim where "the delaying party had sufficient opportunity
to assert the right in the proper forum and the prejudiced party
acted in good faith believing that the right had been abandoned."
Ibid.

The "factors to be considered in deciding whether to apply

the doctrine are the length of the delay,

the reasons for the

delay, and the changing conditions of either or both parties during
the delay."

Ibid.

"The core equitable concern in applying laches

is whether a party has been harmed by the delay."

Ibid.

Courts have recognized that both principles have an important
role to play in elections cases, denying claims as barred by laches
and/or estoppel if a suit was filed after the close of a nomination
period, or an election day, or the like.
471 F. App'x 219

(4th Cir.

2012)

See, e.g., Perry v. Judd,

(claim barred where candidates

challenged law governing circulation of candidate petitions after

October 13, 2020
Page 8
deadline for petitions); Dobson v.
187-88 (D. Me. 2008)

Dunlap,

576 F.

Supp.

2d 181,

(claim barred where voters took three months

to file challenge to rejection of petition, by which time ballots
had been printed); Kay v. Austin, 621 F.2d 809, 813 (6th Cir. 1980)
(claim barred where candidate waited to file suit until two weeks
after not being listed on ballot); Nader v. Keith, 385 F.3d 729,
736-37

(7th Cir.

2004) .7

It is thus no surprise that when our

Supreme Court faced a challenge to a ballot question that was filed
after the election, the Court rejected it out of hand, explaining
"the objection comes too late.
election,

and not,

as here,

The time to protest is before the
after the event."

Two Guys

from

Harrison, Inc, v. Furman, 32 N.J. 199, 233 (1960).
The reasoning in Perry v. Judd is instructive.

There, two

candidates challenged a statute that governed candidate petitions
after the deadline for submitting petitions.

The Fourth Circuit

denied the claim as barred by laches, explaining that the candidate
"chose to sit on his right to challenge this provision until after

7 Indeed, these doctrines apply with such force in the elections
context that lateness can still bar claims filed even before the
consummation of an election. See Purcell v. Gonzalez, 549 U.S. 1,
4-5 (2006) ("Court orders affecting elections . . . can themselves
result in voter confusion and consequent incentive to remain away
from the polls,
As an election draws closer, that risk will
increase."); Republican Party of Pa. v. Cortes, 218 F. Supp. 3d
396, 404 (E.D. Pa. 2016) (holding that delay in filing a challenge
"weighs decidedly against" providing relief particularly when "an
election is looming" and "a State's election machinery is already
in progress"). All the more so if the election has happened.

October 13, 2020
Page 9
471 F. App'x at 224.

he had been denied a place on the ballot."

Allowing late claims would "encourage candidates to wait until the
last minute to bring constitutional challenges to state election
Once a candidate learned he had been denied a place on the

laws.
ballot,

he would take his disappointment to the courthouse and

hapless

state

election

boards

would

be

forced

to

scheduled election processes to wait for a ruling."
And the. harms from such claims would be legion,

halt

their

Id. at 225.

from "expensive

reprinting of ballots" and "send[ing] a second and different ballot
to each voter,

which would risk confusion on the part of those

voters and increase the cost and difficulty of administering the
election," id. at 227, to "restricting the voting rights of other
voters, including overseas members of the military."
F. Supp. 2d at 187-88.

Dobson, 576

For these reasons, equity prohibits such

gamesmanship, and "deliberate delay ... precludes the possibility
of equitable relief."

Perry, 471 F. App'x at 224.

These equitable doctrines dispose of Singh's claim.
Singh could have brought his challenge sooner.

The Governor issued

EO 144 on May 15, 2020, 53 days before the Primary Election.
was aware of this order at the time

Singh

it covered the entirety of

an election in which he was a candidate.
a lawsuit.

First,

And he could have filed

Instead, Singh participated as a candidate and did not

file any challenge until two months after he lost, and 122 days
after the Governor issued Executive Order 144.

Given the timelines

October 13, 2020
Page 10
governing elections, and the short time period between the Primary
Election (July 7, 2020) and General Election (November 3, 2020),
there is no doubt that Singh delayed inexcusably.
The prejudice to the State and the public from that delay can
hardly be overstated.

If this court were to rule in Singh's favor

and set aside the Primary Election, then the General Election would
not be able to take place - in contravention of voters' rights and
both federal and state law.

Under federal law, every state must

hold the General Election for this office on November 3, 2020, in
just 21 days.

See 3 U.S.C. § 1; 2 U.S.C. §§ 1, 7.

Although it is

not entirely clear from his papers, Singh appears to demand a new
Primary Election be held, one not conducted pursuant to the terms
of EO 144.

Bluntly, it would not be possible to grant Singh his

relief and meet the deadline required by federal law.

The doctrine

of laches exists to prevent these sorts of impossible requests.
Other facts amply demonstrate the extreme prejudice the State
and the general public would suffer.

Singh was made aware of the

time-sensitive nature of and advance preparations for the General
Election,
Overseas

including

requirements

under

Citizens Absentee Voting Act"

N.J.S.A. 19:63-9.
8) .

the

(52

the

"Uniformed

U.S.C.

§20302)

and
and

See (CUM-L-481-20, Trans ID: LCV20201368509, at

Further, state law required all active voters be mailed their

ballot by October 5, 2020, N.J.S.A. 19:63-9, and more than half a
million voters have returned their ballots.

U.S. Election Project,

October -13, 2020
Page 11
N.J. Early Voting Stats., https://electproject.github.io/ EarlyVote-2020G/NJ.html (last accessed Oct. 12, 2020).

Singh's request

would disrupt the General Election, where voting has already begun
and which concludes in 21 days.
Singh's reliance on N.J.

Democratic Party,

175 N.J. 178 (2002), lacks merit.

Inc, v.

Samson,

Samson involved a candidate who

voluntarily withdrew from the race in late September and plaintiffs
requested to have the ballots reprinted to replace the candidate's
name.

Id. at 1031-32.

There, the legal claim could not have been

brought earlier, the election had not yet occurred, and the Court
granted relief in part because it was concerned that voters would
be confused and disenfranchised.

Id. at 1038.

Here, by contrast,

the claim could have been pursued sooner (in May 2020), the Primary
Election has concluded, and the General Election is well underway
with over half a million ballots returned.

The instant action is

thus readily distinguishable from Samson, and the concerns of voter
confusion and disfranchisement cut the other way.
Because granting the relief requested at this late date would
disrupt the General Election, the relief must be denied.
POINT II
THE PRIMARY ELECTION WAS VALID AS EXECUTIVE ORDER 144
DID NOT VIOLATE THE UNITED STATES CONSTITUTION.
A.

EO 144 Did Not Violate The Elections Clause.

The Elections Clauses permitted Governor Murphy, exercising

October 13, 2020
Page 12
the authority delegated to him by the state legislature, to expand
access to voting by mail during a public health emergency.
The Elections Clause provides that the "Times,

Places and

Manner of holding Elections ... shall be prescribed in each State
by the Legislature thereof; but the Congress may at any time by
Law make or alter such Regulations,
choosing Senators."

except as to the places of
Singh now

U.S. Const.., art. I, § 4, cl. 1.

claims that the use of "Legislature" prevents any state's governor
from having a role in crafting election procedures, even during an
But that is contrary to the text, "history and purpose

emergency.
of

the

[Elections]

Independent
("AIRC"),

Clause," Ariz.

Redistricting

Comm'n,

State
576

Legislature
U.S.

787,

v.

813

Ariz.
(2015)

a consistent line of Supreme Court precedent,. and two

rulings that rejected the same claims during this emergency.
Begin with the Clause itself.

As the Supreme Court explained,

founding-era dictionaries broadly "define the word 'legislature r
simply to mean the lawmaking power, not a particular body.

//

Id. at

813-14 (collecting dictionary definitions, e.g., that Legislature
means the "Authority of making Laws, or power which makes them").
Indeed,

"[t]he dominant purpose" of the Clause "was to empower

Congress to override state election rules,
States legislate.

Id. at 814-815.

not to restrict" how

There is thus "no suggestion"

in the Elections Clause "of an attempt to endow the Legislature of
the state with power to enact laws in any manner other than that

October 13, 2020
Page 13
which the Constitution of the state has provided that laws shall
Smiley v. Holm, 285 U.S. 355, 368 (1932).

be enacted."
words,

In other

the purpose of the Elections Clause was to delineate the

broad role of state governments in elections, not to decide which
branches within the state enjoyed what authority.
In accordance with this view, the Supreme Court consistently
has held that "Legislature" as used in the Elections Clause does
"not mean the representative body alone."

AIRC, 576 U.S. at 805.

Instead, the term refers more generally to a State's legislative
power, "performed in accordance with the State's prescriptions for
lawmaking."

Id. at 808.

The Court thus held that the people of

Ohio could override by referendum a redistricting law enacted by
the Ohio legislature.

Ohio ex rel. Davis v. Hildebrant, 241 U.S.

565,

Because the "referendum was

567-69

(1916).

legislative power'

in Ohio," the referendum did not run afoul of

the Elections Clause.
U.S. at 569).

'part of the

AIRC, 576 U.S. at 805 (quoting Davis, 241

And in AIRC, the Court affirmed an Arizona voter

initiative amending the state constitution to vest redistricting
authority in an independent commission, not the legislature.
at 792.

Because "redistricting is a legislative function, to be

performed

in

accordance

lawmaking," there was "no
State's .

Id.

.

with

the

[federal]

State's

prescriptions

for

constitutional barrier to a

. embracing" the ballot initiative.

Id. at 808-09.

These cases instruct that because "the [Elections] Clause surely

October 13, 2020
Page 14
was not adopted to diminish a State's authority to determine its
own lawmaking process," id. at 824,
sovereign authority to determine,

the State retains its usual

in a manner permitted by the

State constitution, who may craft election procedures.
Smiley v. Holm illustrates this rule.

Like this case, Smiley

addressed whether the Elections Clause permitted a Governor to be
involved in decisions regarding the time,
elections.

285 U.S. at 363-64.

place,

and manner of

The state Supreme Court held "the

Elections Clause placed redistricting authority exclusively in the
hands of the State's legislature."

AIRC,

576 U.S. at 806.

But

the Supreme Court disagreed, holding that "legislative authority
includes not just the two houses of the legislature," but also the
Governor's veto.

Id.

The Elections Clause "respected the State's
Id.

choice to include the Governor in" the legislative process.

In short, the Clause allows States to give the Executive a say in
elections

rules.

See

Smiley,

Governor of the state . . .
state laws,

285

U.S.

at 368

("Whether

the

shall have the power in the making of

is a matter of state polity.").

The constitution

"neither requires nor excludes such participation."

Id.

Recent decisions involving analogous challenges to emergency
orders are in accord.

In Montana, the legislature has granted the

Governor the power to "suspend the provisions of any regulatory
statute

prescribing

the

procedures

for

the

conduct

of

state

business" in response to "an emergency or disaster," Mont. Code

October 13, 2020
Page 15
See Donald J. Trump for President, Inc, v.

Ann. § 10-3-104 (2) (a) .

Bullock, No. CV 20-66-H-DLC, 2020 U.S. Dist. LEXIS 181109, at *2829 (D. Mont. Sep. 30, 2020).

In response to the COVID-19 pandemic,

their Governor exercised this power to suspend a state prohibition
on holding elections via the mail.

Id. at *10-11.

The District

of Montana concluded that this gubernatorial action was a valid
"use of the legislatively created suspension power" and therefore
was constitutional under the Elections Clauses.

Id. at *11-*12.

Likewise, the District of Nevada rejected a challenge to the Nevada
Secretary of State's implementation of an all-mail election for
the Nevada primary "in order to diminish the spread of COVID-19."
Paher

v.

Cegavske,

No.

3:20-cv-00243-MMD-WGC,

LEXIS 76597, at *2 (Apr. 30, 2020).

2020

U.S.

Dist.

In upholding the action,.the

Court explained that "the Plan [was] effectively prescribed by the
state's legislature,

because the Nevada Legislature has in the

first instance authorized the Secretary to adopt regulations to
carry out the state's election laws."

Id. at *23-24.

That the

State's executive was relying on delegated authority to adopt new
elections rules was of no moment.
As in Bullock and Paher, the Governor here was acting pursuant
to his legislatively-assigned responsibility during an emergency.
In New Jersey,- the Governor is vested with broad power in times of
emergency under the Emergency Health Powers Act ("EHPA"), N.J.S.A.
26:13-1 to -31, and the Civilian Defense and Disaster Control Act

October 13, 2020
Page 16
("CDDCA"), N.J.S.A. §§ App.A.:9-30 to -63.
emergencies

to

include

"any

unusual

These statutes define

incident

resulting

from

natural or unnatural causes which endangers the health, safety or
resources of the residents of one or more municipalities of the
State," N.J.S.A. § App.A.:9-33.1, and "an occurrence or imminent
threat of an occurrence" of disease that "poses a high probability
of," inter alia, "a large number of deaths, illness, or injury in
the affected population."

N.J.S.A. 26:13-2.

COVID-19, which has

spread to every corner of the state, led to 14,000 deaths and more
hospitalizations, and still presents a threat without vaccine or
cure, obviously qualifies as an emergency.
103

(Mar. 9, 2020), 144

See N.J. Exec. Orders

(May 15, 2020), and 186 (Sept. 25, 2020)

(describing in detail the public health emergency).
And those emergency powers the Governor may implement during
an emergency plainly include the sorts of measures he took relative
to the Primary Election, which may be why Singh did not see fit to
challenge EO 144 when it first issued in May.

Under the CDDCA, in

an emergency the Governor is expressly empowered by the Legislature
to exercise "broad .

.

. authority to issue emergency orders" on

"any matter that may be necessary to protect the health,

safety

and welfare of the people," even where that action requires changes
to the rules that would govern in non-emergency periods.
Gloucester v.
§ App.A.:9-33).

State,

132 N.J.

141,

145

(1993)

Cnty. of

(citing N.J.S.A.

That power has been upheld by the courts.

See,

October 13, 2020
Page 17
e.q., Worthington v. Fauver,

88 N.J. 183, 208

(1982)

("Where the

executive acts pursuant to an express or implied authorization
from the Legislature [a Governor] exercises not only his own powers
but those of the Legislature.

In such circumstances the executive

action should be 'supported by the strongest of presumptions and
the widest latitude of judicial interpretation, and the burden of
persuasion would rest heavily upon any who might attack it.

t rr

) ;

Commc'ns Workers of Am., AFL-CIO v. Christie, 413 N.J. Super. 229,
259 (App. Div. 2010)

(noting that an emergency action will be valid

if the "executive order flows out of the Governor's legislativelydelegated emergency powers to act on behalf of the safety and
welfare of the people of New Jersey").
Those emergency powers clearly apply to EO 144.

As the Order

explains in detail, because COVID-19 spreads via person-to-person
contact, the State needed to take steps to limit contact, and stem
the tide of cases, hospitalizations, and deaths from the disease.
EO 144 at 1.

That presented a special problem for an election,

because in-person voting requires individuals to leave their homes
and interact with poll workers and voters, such that "allowing the
July primary

elections

to proceed as

circumstances

during this

they would under

unprecedented COVID-19

normal

health crisis

will create hardships and health risks for voters, poll workers
and candidates alike."

Id. at 2.

The concerns were magnified by

the fact that "the COVID-19 emergency and its impact are likely to

October 13, 2020
Page 18
extend for an as-yet-undetermined period of time," which "makes it
difficult

for

election

officials,

candidates,

and

voters

to

properly plan and prepare for and fully participate in the July
primary elections if they were to proceed as they would under
normal

circumstances."

Ibid.

And,

most

importantly of

all,

"failing to offer voters a ready alternative to reporting to public
polling places to vote in July in the midst of the COVID-19 crisis
will

hinder

public

participation

in

the

democratic

process,

particularly among elderly and immune^-compromised voters."
3.

Id. at

By taking steps to ensure that individuals could vote without

getting sick and/or spreading the virus in their communities, this
Order fits comfortably with the powers assigned to the Governor to
protect the health and welfare in the middle of an emergency.

And

because it fits within the governing state statutes, the Elections
Clause has nothing to say on the matter.
AIRC, Smiley, and Davis thus compel the same conclusion here
that they did in Bullock and Paher:
Elections

Clause

because

Governor

EO 144 did not violate the
Murphy was

using

his

valid

"legislatively created" powers to address a crisis.
B.

The remaining constitutional claims are baseless.

Singh asserts that EO 144 violates his rights to procedural
due process and equal protection.
LCV20201616572 at 44 M 5D-E).

See (MRS-L-1757-20, Trans ID:

Not so.

Procedural due process ensures "fair procedure" under which

October 13, 2020
Page 19
a state may not take or deprive a person of property or liberty
"without providing appropriate procedural safeguards."
Dover Twp.

Rent Leveling Bd.,

143 N.J.

Tumpson v. Farina, 218 N.J. 450, 489 (2014)

352,

363-64

Rivkin v.
(1996);

see

(stating federal courts

have found "a deprivation of a procedural due process right when
a defendant improperly causes an actual loss of that right opposed
to a delay or a temporary obstruction of its

exercise.").

A

threshold question regarding "any procedural due process case is
whether the deprivation was
conduct

or

procedure."

whether

it

Id. at 374.

caused by random and unauthorized

resulted

from

an

established

Singh, and all candidates,

and voters were apprised of EO 144 on May 15, 2020.

state

officials,

Singh has not

shown that he was deprived of any due process rights.
Any allegation of an equal protection violation fails as well.
Courts have repeatedly upheld "generally-applicable and evenhanded
restrictions that protect the integrity and reliability of the
electoral process itself."
788 n. 9 (1983).

Anderson v. Celebrezze, 460 U.S. 780,

And this is precisely such a claim:

EO 144 did

not discriminate against any candidates in the Primary Election,
and instead applied the same election procedures evenly for each
office and each candidate.

Even were there differential treatment,

a claim that a law treated candidates differently still fails if
the law is "reasonably and suitably tailored to further legitimate
governmental objectives."

Matthews v. Atl. City, 84 N.J. 153, 169

October 13, 2020
Page 20
(1980) .

EO 144 was plainly addressed to such a purpose - to ensure

voters access to the franchise despite a public health crisis
and the use of mail-in voting was tailored to that goal.

EO 144

does not violate principles of equal protection.
CONCLUSION
For these reasons,

the court should uphold Executive Order

144 .
Respectfully submitted,
GURBIR S. GREWAL
ATTORNEY GENERAL OF NEW JERSEY
By:

/s/ Beau C. Wilson
Beau C. Wilson
Deputy Attorney General
Attorney ID# 265042018
Beau.Wilson@law.nj oag.gov

Melissa H. Raksa
Assistant Attorney General
Of Counsel

Via Email
All Parties of Record
C:

APPENDIX 6

Singh Declaration (Filed in Superior Court,
Appellate Division October 13, 2020)

MRS-L-001757-20 09/21/2020 04:12:12 PM Pg 1 of 22 Trans ID: LCV20201664578

Hirsh Singh
Filing as Pro Se
P.O. Box 407 Linwood, NJ 08221
9 Wexford Lane Linwood, NJ 08221
(609)335-5289
info@hirshsingh.com

HIRSH SINGH,
Petitioner,
v.

HONORABLE PHILIP D. MURPHY,
in his official capacity as Governor of
New Jersey, HONORABLE TAHESHA
WAY, in her official capacity as New
Jersey Secretary of State; John Doe
Respondents.

SUPERIOR COURT OF NEW JERSEY
MORRIS COUNTY
LAW DIVISION
DOCKET NO. MRS-L-01757-20
CIVIL ACTION
DECLARATION BY HIRSH SINGH IN
SUPPORT OF REPLY TO DISMISSAL

I, Hirsh Singh, declare as follows:

1.

I am over 18 years of age, and am fully competent to make this

declaration. I make this declaration of my personal knowledge.
2.

I am a resident of, and, a registered voter in Atlantic County in the

State of New Jersey and I voted in the primary election in Atlantic County held on
July 7, 2020.

MRS-L-001757-20 09/21/2020 04:12:12 PM Pg 2 of 22 Trans ID: LCV20201664578

3.

I empowered Mr.King Penna to act as an official representative of

myself and the campaign to gather information on the election and to speak on my
behalf where it is needed.
4.

I submitted my election contest on September 1st 2020 at 4:28pm 12

days after the completion of the Sussex County Recount on August 20th 2020.
Exhibit A is a true and correct copy of the submission via New Jersey Judiciary
Electronic Document Submission (JEDS) application.
5.

On July 7th, election day I took it upon myself to visit different Boards

of Elections across the state as a statewide Challenger. When I visited the Bergen
County Boards of Elections, I was physically barred from entering the location of
counting. I was illegally told I was not allowed to be present. That due to COVID191 was not allowed to be in the building.
6. I was present at the Atlantic County Board of Elections when the decision
was made to count 37 ballots stamped July 8th at the discretion of a letter
received by the Post Office. I personally accessed the website of the Press of
Atlantic City https://pressofatlanticcitv.com/politics/atlantic-countv-boardof-elections-deals-with-another-postal-service-glitch/article 17a526303759-5ff8-9923-300883b20096.html and found that it had a webpage shown
in Exhibit B containing a true and correct copy of screenshots of the article
from the Press of Atlantic City that was put into print.
2

MRS-L-001757-20 09/21/2020 04:12:12 PM Pg 3 of 22 Trans ID: LCV20201664578

7.

I nor any member of my campaign was consulted by Governor Phil

Murphy in his formulation or execution of Executive Order 144.
8.

I emailed the Union County, Secretary of State’s Representative, and

Attorney General’s office on July 17th when I first became concerned of counting
issues with July 8th stamped ballots at Boards of Elections. I requested the
protocols provided to the county Boards of Elections by the secretary of state but
was never responded to. Exhibit C containing a true and correct copy of the email
sent to the Secretary of State Representative and Attorney General’s Office.
9.

On July 18th having not heard back from Secretary of States office and

utilizing my powers as a challenger I attempted to stop the counting of ballots
stamped July 8th by emailing all Boards of Elections of all 21 counties including
the Attorney General’s Office, and the Secretary of States office. I was not
responded to. Exhibit D containing a true and correct copy of the email sent to all
Boards of Elections, Secretary of States office and Attorney General’s office.
10.

Upon personal knowledge, I know that the vote of Susan Ney was not

counted. EXHIBIT E is the true and correct copy of the message this voter sent
me.
11.

Upon personal knowledge, I know that the vote of Adam Scott

Mitchell was not counted. EXHIBIT F is the true and correct copy of the
messages this voter and his wife sent me.
3

MRS-L-001757-20 09/21/2020 04:12:12 PM Pg 4 of 22 Trans ID: LCV20201664578

12.

Upon personal knowledge, I know that the vote of Tom Taylor was

not counted. EXHIBIT G is the true and correct copy of the message this voter
sent me.
13.

Upon personal knowledge, I know that the vote of Lori was not

counted. EXHIBIT H is the true and correct copy of the message this voter sent
me.
14.

Upon personal knowledge, I know that the votes of David, Susan, and

Faith Campbell were not counted. EXHIBIT I is the true and correct copy of the
message this voter and his family sent me.
15.

Upon personal knowledge, I know that the vote of Karen Nunamacher

Mencaroni was not counted. EXHIBIT J is the true and correct copy of the
message this voter sent me.
16.

Upon personal knowledge, I know that the votes of John Snook and

Cynthia Snook, were not counted. EXHIBIT K is the true and correct copy of the
message this voter sent me.
17.

Upon personal knowledge, I know that the votes of Jeffrey K. Scudder

and Lucy A. Taweel were not counted. EXHIBIT L is the true and correct copy of
the message this voter sent me.
18.

Upon personal knowledge, I know that the vote of June Levy Lukas

was not counted. EXHIBIT M is the true and correct copy of the message this
4

MRS-L-001757-20 09/21/2020 04:12:12 PM Pg 5 of 22 Trans ID: LGV20201664578

voter sent me.
19.

Upon personal knowledge, I know that the vote of Lisa Carole was

not counted. EXHIBIT N is the true and correct copy of the message this voter
sent me.
20.

Upon personal knowledge, I know that the vote of Marta I. Horvath

was not able to vote at a machine because she was not disabled. EXHIBIT O is the
true and correct copy of the message this voter sent me.
21.

Upon information and belief, I hold that the same unequal standards

for counting and rejecting ballots known to have been employed in Middlesex
County were employed across the state. Consequently, Defendant should be
commanded to turn over corresponding information for me analyze and for the
Court to consider as part of this matter

I declare under penalty of peijury that the foregoing and attached Exhibits are true
and correct. Executed on September 21,2020.

By: s/

5

Hirsh Singh
Hirsh Singh

MRS-L-001757-20 09/21/2020 04:12:12 PM Pg 6 of 22 Trans ID: LCV20201664578

EXHIBIT A

*

Judiciary Electronic Document Submission

^ New Jersey Courts

^Hams

f~jEf-St9893 x

My Submissions.

r
r
* •

©

-

V

‘
_ (law division cases)

v

i

-

[~}EF-Z»lt» x ' • • My Submissions X

MERCER.-

.

Ovil

Suing forover 115,000
ll^w dM^on uses)

CmI

Suing for over S15,000 (law dwisiort uses)' . ' r*.

AmendedComplaint- - -

Filer naira

User/3erW

. Hirsh Singh

hirshsingh

. '
-

9/14/201.02PM

Resdved-Compie;ed

9/1/2Q*28?M.^

_Resctved-Cwrpiet«) '

•

- - MRSI-OOI757-2Q

L-i5Sfr20

( Documents |
- Documents

1 1

Transaction id
EF-203206

Other (ting type description

Petition Election Contest Per NJSA 19:29-2 :
Address

Phone number

email address

9 Wexford Lane, Linwood. NJ 08221

6093395289

hirshvs4@gmail.com

Transaction lee

Total fee

$0.00

$0.00

. Submission fee
80.00
Payment type

Not applicable

\

6

MRS-L-001757-20 09/21/2020 04:12:12 PM Pg 7 of 22 Trans ID: LGV20201664578

EXHIBIT B

10:24-?

•111

< Gmail

■>

10:24-?

SHARE THIS-*

MAYS LANDING - The Atlantic County Board of
Elections voted Friday night to accept 37 voteby-mail ballots the U.S. Postal Service said it
received by primary day July 7 but mistakenly
postmarked July 8.
The board handled the issue at its meeting to
review signature problems on a last batch of
vote-by-mail ballots, and to begin counting
about 6,000 provisional paper ballots filled out
by those who went to the polls on Election Day.
As of Thursday in Atlantic County 41,241 voteby-mail ballots had been counted of about 45,000
cast, said board Chair Lynn Caterson. The board
had not begun counting provisionals by 7 p.m.
In the contested Atlantic City Democratic
primary for mayor, incumbent Marty Small Sr.
has about 64% of the vote, while challenger
Pamela Thomas-Fields has about 31% and Jimmy
Whitehead about 5%.
Under state rules, ballots needed to be
postmarked on or before July 7 to count, so the
board had to get an opinion from the state
Attorney General’s Office to consider accepting
the 37 ballots they voted Friday.

7

. .ul "?

* Gmail

6 pressofatlanticcity.com

6 pressofatlanticcity.com
SHARE THIS-*

The Attorney General’s Office said the board
could use its discretion, Caterson said. If it
believed the ballots had been delivered to the
Postal Service on time, it could accept them.
“I feel those ballots should be counted for the
election,” said Democratic Board Secretary John
Mooney. “I don’t believe it’s the fault of the voter.
The Postal Service has had a lot of rocky roads in
this election.”
“What’s mind-boggling is they were all
interspersed with ballots postmarked July 7,"
said Republican Commissioner Mary Jo Couts.
On July 8, the board had picked up several trays
from the Mays Landing post office containing
hundreds of ballots, Caterson said. All but 37
were postmarked July 7.
Those postmarked July 8 were put aside as
ineligible for acceptance, she said.
“We didn’t know at that time” that there was a
problem, Caterson said.

MRS-L-001757-20 09/21/2020 04:12:12 PM Pg 8 of 22 Trans ID: LGV20201664578

EXHIBIT B Continued
10:26-7

ml

•4 Gmail

(■}

10:25-7

.»il «• ®

< Gmail

6 pressofatlanticcity.com

6 pressofatlanticcity.com
SHARETHIS**

SHARETHIS4

Holmes could not be reached Friday night.

It wasn’t until a letter arrived Monday from
Mays Landing Postmaster Dwayne Holmes that

There were also problems in June with vote-by-

the board realized those ballots probably were

mail ballots filled out by voters being returned
to them, rather than delivered to the Board of

incorrectly postmarked.

Elections. Couts was one of the voters who got

“On the morning of July 8, 2020, the Postal

her ballot back.

Service’s Eastern and Northeast Areas became
aware of a number of ballots located at Postal

That mix-up was due to Postal Service staff
feeding them into scanners improperly and

Service delivery units for the July 7th New Jersey

board’s, according to Assistant County Clerk

primary election that did not have postmarks,”
Holmes wrote. “These ballots were postmarked
at the delivery units with a July 8, 2020, date and

Mike Sommers.

were subsequently delivered to election officials

reading the voters’ address rather than the

on July 8.
The board on Friday night expected to count
Atlantic City provisional ballots first, since there
is a contested mayoral primary there.

“Based on the Postal Service’s operational
processes, we believe ballots located at a delivery
unit on the morning of July 8, and delivered later

It did not expect to count the provisional ballots
from Hamilton Township, where there is a
tightly contested Republican primary for

that same day, would have been received by the
Postal Service on or before July 7, 2020.”

Township Committee. The processing of
Hamilton Township ballots was held up by

Caterson said she has written a letter to Holmes
asking for more information on how widespread

problems with the Statewide Voter Registration
System, Caterson said.

the problem was, where the unmarked ballots

Superintendent of Elections Maureen Bugdon
collects all provisional ballots, and her staff
1. _________ *.1______ 1_______1. . _

8

_______ 1..

came from and other details, but has received no
response.
Holmes could

n'ght.

MRS-L-001757^20 09/21/2020 04:12:12 PM Pg 9 of 22 Trans ID: LCV20201664578

EXHIBIT B Continued
10:26-7

:

* Gmail

„ll •» SC'

6 pressofatlanticcity.com
SHARE THIS-*

tightly contested Republican primary for
Township Committee. The processing of
Hamilton Township ballots was held up by
problems with the Statewide Voter Registration
System, Caterson said.
Superintendent of Elections Maureen Bugdon
collects all provisional ballots, and her Staff
checks to be sure they have been cast by properly
registered voters, and that the voter hasn’t also
cast a vote-by-mail ballot. But her office relies
on the SVRS, which has crashed and had various
problems throughout the primary process,
election officials have said.
In Cape May County, Clerk Rita Fulginiti said all
20,360 vote-by-mail ballots; have been counted
and added to the tally on the county website.
Turnout in the county for the election was 28%,
high for a primary.
The Board of Elections in Cape May County has
scheduled the counting of about 2,500
provisional ballots for July 22, Fulginiti said.
{child_tagline}
{/child_tagline^

9

MRS-L-001757-20 09/21/2020 04:12:12 PM Pg 10 of 22 Trans ID: LCV20201664578

EXHIBIT C

fftr

me Jul 17

Urgent Question Regarding Mail-

to robert.giles@sos.nj.gov, robert.giles... ~

In Ballots Marked July 8th

Mr.Giles,
Please see the email below.

me Jul 17
.tf1

☆
...

to ucboe@ucnj.org, George.Cohen@la.

Chairman DeSimone,

We have grave concerns about the conduct of
the election including the preservation and
counting of ballots. Specifically what directives
have been provided to the county clerks? What
are the protocols that have been provided and
who is responsible for ensuring that those
protocols are complied with?

Very Respectfully,

Hirsh V. Singh
Republican Candidate for Nomination for the
United States Senate

Commissioner Harris,
Commissioner Oakie,
Administrator DiRado,
Deputy Administrator Wise,
CC: Mr.Robert F. Giles, and Mr.George Cohen.
It has come to our attention that 641 mail-in
ballots that were post marked July 8th are
expected to be counted. Can you please provide
us the number of Republican and Democrat
ballots that make up the 641.
Please separately mark these ballots as we we
will be looking into this matter with the Attorney
General's and Secretary of States Office.
Of the 1851 Republican Provisional ballots that
were received and counted. Please provide the
candidate breakdown for the provisional ballots.

Personal Mobile: (609)335-5289
Thank you very much,

Managers Mobile: 973.951.5910

10

Hirsh Singh
(609)335-5289

MRS-L-001757-20 09/21/2020 04:12:12 PM Pg 11 of 22 Trans ID: LCV20201664578

EXHIBIT D
To: Secretary of State, Attorney General
Cc it to all counties
Subject: URGENT: Please stop ongoing election
fraud.
I would like to call attention to the fact that an
unknown number of counties are receiving letters
to accept ballots that have been wrongly
postmarked by the US Postal Service. Union
County officials have claimed that they have
obtained 641 ballots postmarked July 8 and will be
counting them. Likewise, Atlantic County officials
are claiming to have 37 ballots postmarked July 8
that they allegedly received on July 7. These ballots
are being manufactured after the fact and were
produced nearly 10 days after the July 7 deadline.
Every county should be instructed to immediately
impound these ballots and they should not be
counted.
I would like both your offices to act swiftly and stop
these ballots from being counted as including them
violates state laws. The ballots were supposed to
be postmarked by 8 pm on July 7 and voters were
given a sufficiently long time to vote and ensure
that this would be possible. You must ensure every
single county does not count these ballots.
It is now unfair to shift the goalposts and count the
ballots with the county officials making up rules as
they go along. This constitutes election fraud. I
urge the Secretary of State's office to order every
county to not include ballots postmarked after the
July 7 by 8 pm and the Attorney General to
immediately launch an investigation.
Very Respectfully,
Hirsh Singh
(609)335-5289

11

MRS-L-001757-20 09/21/2020 04:12:12 PM Pg 12 of 22 Trans ID: LCV20201664578

EXHIBIT E
<

Susan Ney

AUS8

1

I

?

!
if
[9

AM

Me Singh I just wanted to let you
know that I was a voter that voted
for you my ballot came back said it
wasn't signed i signed the form
sent it back in immediately I just
received a letter from the
Monmouth County Board of
elections telling me that it doesn't
count because my signature
doesn't match I just wanted to let
you know that t was a voter that
voted for you my ballot came back
said it wasn't signed I signed the
form sent it back in immediately I
just received a letter from the
Monmouth County Board of
elections telling me that it doesn't
count because my signature
doesn't match.

s~-——

:

*

i
!
i

f

SOOHPUSMURD

'

PHONE 731-01-7802
FWL752-303-7Wfl

t

freehold wor72e

;■

Oft

SUSAN £ NEY
32MAXERMSS
COLTS NECK NJ 07722-1764

l
f

Voter (0#

I'

006 04/1

OMtSUftfiMNEY.

I

!
f

• Btgftuii Oow Not Kfrfcft.

(
*
f

f.

i

\

SSSSSSt^ ;

t

i

CowrtySowtf oretaett *

AJ7. C , 11 ’1 AM

t

jaaggasEftifl_____________

J

i.
f'

)

I
it

Vb

12

I

!
r.

i

MRS-L-001757-20 09/21/2020 04:12:12 PM Pg 13 of 22 Trans ID: LCV20201664578

EXHIBIT F
Sarah Mitchell

;■

V

i

Michael Mitchell

i

JUL 30. 4:18 PM

JUL 12, 12:51 PM

My husbands provisional was
returned today!!! They said his
signature didn't match. They also
falsified the delivery of it!! They said
it was returned and delivered
Monday the 27th. We received it in
the mailbox today, past the 2pm
deadline!!! We called the board of
elections and they told us too
bad!!!! We are LIVID. Please fix this.
His vote was not counted.

'

agghsjH

Sarah Mitchell

<
i;

'

We both voted for you.

f;

Howell township municpality
Monmouth County
JUL 30, 7:29 PM

Ms.Mitchell, Will follow up and .!
investigate this. Thank you for
reaching out!

'

Ok his name is Adam Scott Mitchell
and he is very upset. I think he sent
you a message as well on here. He
filed a formal complaint with the
postal service also.

■

1

Sarah Mitchell
inspector called the Monmouth
County board of elections
personally and explained the
situation he stressed that the delay
in returning the letter was 100
percent no fault of the vote, my
husband. The board of elections
told him they don't care and the
vote doesn't count. It's not their
problem. Please share this
experience we have had far and
wide just anonymously. Please
don't mention our names. He also
said this is rampant and happening
all over the place. So please look
into Monmouth County board of
elections.

13

Just want you to know that I voted
for you. If all the votes are counted,
I am confidant you will wjn.
I need to share this with you, I
commented on a post on facebook

We got an update from the USPS
inspector assigned to our formal
complaint today. This is truly
outrageous! He confirmed that the
letter from the board of elections
asking my husband to verify his
vote was not delivered on time.
Reason being was because the mail
carrier delivered the express mail
letter to the wrong address and
marked it as delivered. They
delivered it to the IRS in error. 8y
the time the mix up was realized, it
was too late to deliver the letter to
my husband on time. My husband
received the letter after the
deadline had passed. The USPS
inspector called the Monmouth
County board of elections
personally and explained the
situation he stressed that the delay
in returning the letter was 100
percent no fault of the vote, my
husband. The board of elections
told him they don’t care and the
vote doesn't count. It's not their
problem. Please share this
experience we have had far and
wide just anonymously. Please
don't mention our names. He also
said this is rampant and happening
>er tho ola^o

;o

I went to the polls (South
Brunswick, Brunswick Acres
school) and was TOLD I HAD to use
a paper provisional ballot. There
was a voting machine but I was told
its only for handicapped. ( how,
one needs to ask, is it any easier
for a handicapped person to use a
voting booth than a piece of
paper?!) I was told I had to fill out
section 1 of a personal information
sheet attached to the ballot
envelope. That section had 4
'reasons' for me using the
provisional ballot, none of which
were the reason. The reason was
that I was told by the Election
'officials' that I ‘had to’. I asked
where that reason and
corresponding checkbox were. The
same official said, 'oh, I asked the
same question, you can leave it
blank'. Incredulous.

;
:

s

mmg

ik.

Michael Mitchell

:
:
;
;

’

■

:
:

"

■

where that reason and
corresponding checkbox were. The
same official said, 'oh, I asked the
same question, you can leave it
blank'. Incredulous.
I crossed off all the pre-printed
'reasons' and wrote the real reason
- GOVERNMENT MANDATED.
Thats for starters.
I voted for Singh.
I demand my vote be included in
this election, or this election is a
fraud.
Candidate Singh -1 hope you are
seeing this.
I have photos.

!;
i

Ill

MRS-L-001757-20 09/21/2020 04:12:12 PM Pg 14 of 22 Trans ID: LCV20201664578

EXHIBIT G

' I

Tom Taylor

<

:

E
l
I

ii|\
■

■

!

AUG 24, 9:57 PM

I
5

S

!

i?

I

s

iaSSKffiSSEf’'

:l

I

!
I
■
I

■

• -1

■

•

-aas

«-»■

nt* thomas t-AVLO*.
HU b*t*t fttafcfl'n <Mi rtm $Oj-Ntfc»r*«iy* >aly T*. 11CE Prnii) kJ^aiwiMiK^rfxi
hj itwfVwfcOwi}- I'Wjn-iJHrtrfCwnmiw; t* Worm until
RfMWfJ* WII'I'iMm
ir^v hw»co«niRni »r«MecfM *ttv. «***%)••:3*ff e il. 6. Sim* vl
(T.1?)JTJ.J)67 nr«Tn* dm!* ti (IsjtfrtM fort »K«t

i

Jf ffrmrmwinittirnrr-1-^^—■—
nuktmv
SmtntJp.

a
I
e
t

If

5,

<
s

¥

I

%
\

f
’■

i

l
i

After voting in person at primary I
: received this letter saying my ballot
was rejected because they had
received a mail in ballot from me. I
had NEVER used mail in voting. I've
been victim of voter fraud and after
sharing this in Face book groups I
find many more people state wide
are experiencing same issue. I've no
confidence that my vote for you will
mean anything as it can just be
stolen. I want in person voting.
Please expose this fraud

i

I
i

'
;

j

•m

14

V<V-, '*-•! V-

f ■

t
i.'
?■

r

I
:

i

i.
t

i

Ii.

MRS-L-001757-20 09/21/2020 04:12:12 PM Pg 15 of 22 Trans ID: LCV20201664578

EXHIBIT H
I

I
I

From: <icon68@aol.com>
Date: Thu, Jul 23, 2020 at 1:58 PM
Subject: Essex county vote
To: <info@hirshsinah.com> " ..

I

I
I
i

I

l

15

i?
B

i
I live in Essex County. I voted for Hirsh. I called
Newark today because on my ballot tracker it says
they received my mail but it was was not listed in
my election history. They said it wasn't counted yet
and it will be listed on the election history once it's
counted. They said they may finish today. I just
wanted to make you aware of this since they
received my ballot on July 3.
Thank you.
Lori
Sent from my iPhone

w

I

I!

£ ■ ■

i:

■(

p
I
I

MRS-L-001757-20 09/21/2020 04:12:12 PM Pg 16 of 22 Trans ID: LCV20201664578

EXHIBIT I
<

From: David Campbell
<dbcampbell346(5)amail.com>
Date: Tue, Aug 11, 2020 at 8:39 PM
Subject: Election Fraud
To: <info(5)hirshsinah.com>

:

Dave Campbell

AUS11 7.G8PM

We mailed 3 ballots on July 6th,
(mondav) in the morning at the post
office. We have received notice that
the 3 ballots did not count because
they were received after the close
of the polls. The ballots is post
marked before 8 pm on July 7th,
should have counted. Voter fraud
has gone against your campaign on
3 accounts.

Our household received notice that our mail-in
ballots were not received in time to be counted
with the July Primary. On Monday July 6th, 2020,
We mailed our ballots at 10 am at the Beverly Post
Office at 10 am in the morning. This was well
before the 8 pm deadline for Tuesday, July 7th,
2020. Enclosed is the notice all 3 of us received.

f

AUG 12,10.27 AM

f

Sincerely,

What county are you in and can you
send me copies of the letters you
received as well? If needed send to
info@hirshsingh.com - thank you for
reaching out we are trying to
investigate and challenge this in
court.

David B. Campbell

L

I

This is Burlington County, i live in
Edgewaterpark.

£251.

EE?*.

f

-Sr

w

W

!'

AU312;10.«3 AM

'ESS^ ■ ■

!:

f

. . JOSEPH oy gam

JOSEPH DUGAN
BURLINGTON COUNTY
COUNTY BOARD OF ELECTIONS
SOIRANCOCASROAO
MOU NT HOLLY< MJ 06060
PHON&C09-:.265-5161
-5181
FAX: 609-26S-3 131

eunuMGTON cCOUNTY
COUNTY BOARD OF ELECTlIONS
60RANCOCAS ROAD
MOUNT HOLLY NJ 0 R000
PHONE: 6D94854'161
FAX: 609-2CM131

SUSAN M CAMPBELL
416 SUtMER AVE
BEVERLY Nj 0601 0-1434

FAITH A CAMPBELL
415 BUMMER AW
BO/CRLY NJOSOtO-1454

0?ItS®BO

07/15/2020

Voter ID t J14363520C5

VOIor ID * N18G2753121

iinimiiiifl

DOB 12/28/1061

DOB 10/23/16IW

Dear SUSAN CAMPBELL.

D«r FAITH CAMPBELL.

The offer I* in aecerpf ul your M«Wn bMlot for 0» PRIMARY ELECTION on.Jtey7.3Q23.
Unfortunately. your MaUn balm arm no! oounfod for foe toBowlrg miooNsy

7T»OfStOf*IrtrottfetOf yourMa/Mn boBottof Iho PRIMARY ELECTION oniJUy7.2Q20,
Unfortunately, yout MaUn bated was hot counted for iho foHowlnQ reason(«:

• The MrtHn bnlWvws reserves by [he Board cY Electee sfletthectoisotth* potB on or
after Election D*y,

• The UjiHn bafttf w»* racaMid "by the Bosrd cf Eloction nf»t tha efc»* e/ ths psk
after EtoeOon Dty.

If you ftava my quacticrt*. ofoasa conteS Ous Nfleo frt Iho above fated number,
ti you hm any quetonn$, pt*a*e ajmael Rita offiea ai the abovn Mod number,
S/ncorefy Yoor*.
Smrerefy YOurt,

JOSEPH DUGAN

-

t7*y
JOSEPH DUGAN

County Sard ofOoctkm*

County Board of Glpatons

JOSEPH OUGAN
BURLINGTON COUNTY
COUNTY BOA\RD OF ELECTIONS
DORANCOCAS ROAD
MOUNT HOLLY NJ 080G0
PHONE: 609-265-5181
FAX: 609-265-3131

DAVID B CAMPBELL
415 SUMMER AVE
BEVERLY NJ 08010-1424

07/159020'
Voter IOOJ143fi>ft?fr(;5

null mu
• DOS 03/03/1960

Dear DAVID CAMPBELL.
The ofScolsfn receipt of your Man-In ballot for the PRIMARY ELECTION on Juty 7.2020.
Unfortunately, your MaIMn ballot was nol counted |pj ihe following rtason|sl:
• The MNI-in ballot was received by Iho Bocrd of Etoeion after foe dose of the polbi on or .
after Section Day.
II you have any questions, please contact this oflico at the above listed number.

■

Sincerely Yours.

ir'jr
JOSEPH OUGAN
County Board of Elections
:■

16

«ri

satr

MRS-L-001757-20 09/21/2020 04:12:12 PM Pg 17 of 22 Trans ID: LCV20201664578

EXHIBIT J

<

Karen Nunamacher Menca...

i

:
AUG 15. 5:02 PM

t.
I;

1

17

Well Mr Singh i am very upset. I,
my son and my daughter all voted
for you in the primary. We hand
delivered our ballots to the clerks
office on election day. We all just
received letters from the election .
board that our votes werent
counted due to incorrect address.
That is total bullcrap. I triple
checked all of our ballots ...after 40
years living here how would i not
know my address. I am livid. How
many others that voted for you did
this happen to?

:

i
E

I

I
!

i;

MRS-L-001757-20 09/21/2020 04:12:12 PM Pg 18 of 22 Trans ID: LCV20201664578

EXHIBIT K

Fwd: Vote not counted T> moox

©

Singh for Senate 12:23 pm

☆

n

JOSEPH OUOAN
BURLINGTON COUNTY
county boako of elections
M RANCOCAS ROWS
MOON r HQU Y NJ 08060
PHONE.
FAX e QW«5-J(il

• ••

to me ~

I
!

CYNTHIA C SNOOK
7homfsij adavf
r«NroNHj mmc<>***

rms/yeo

UWtflil

)
0MT CYNTHIA SNOOK.

------ -------Forwarded message ——-----From: John Snook <isbowhunt3@verizon.net>
Date: Mon, Aug 10, 2020 at 12:21 PM
Subject: Vote not counted
To: <info@hirshsinah.com>

;

3

:■

if

s^^sssc^s^cssss^*'’ "

?«

i

f ywi tmm any quMtaM. HMN contact Pt offc» at «w **>»• L«er> n«iT.NH

I;
I

St-'icvuly faw'X

I

•r'r
.3

!r i-

DO® B*

j

■5

I
I

Sent tram AOL Mobile Mall
Get the new AOL app: mail.mobiie.aol.com

JOstPHOUGAN

i

They claim our votes were received after the close
of polls, they were mailed on June 30th, 2020.
Here are two votes for Hirsh that weren't
counted. Something fishy going on here.....

C5cM"ty8tw!|u,fE5wstwA

s
f
j

■>

■V.lVJfVSHfcf

I

■•!

JOSEPH DUGAN
BURLINGTON COUNTY
COUNTY BOARD OF ELECTIONS
SO RANCOCAS R OAO
MOUNT HOLLY NJ 080CO
PHONE
2SW181
FAX«09-2M-3131

-;^.v.

:

vrnm
JOHN O SNOOK
7 HOMFSTCAO AVE
TRrNTON NJ 0*020-0068

J

.1
i
\
■!

1
I?

omvw

n

Vrftar ID a UA717.BMM

I

tX»tonVH»2

Dear JOHN SNOOK,
Y ELECTION on Jury
Juty 7 znzo
ZP2t)
The oftce a <n wee iptof youtMa Hr balot kit th* PRIMARY
Unl»Tun#l»ty. your Mail-in ballot
batlot mi not ooun tod lor the fotuwtng wssonfsi:
. TTwMa*-fcibe>totYvaer««iva<St>ytheBcjrt«<Etei-:4>na*¥r«*e'lr*e<rf 'hapofliooor
•Aar Election Day
If you have any quasfiara pteaeo contact til* office at t * aiove tTic «•-«taw

i

:I

/7'j"
JOSrPHOaJGAH
Cotrtiy 8o*Jd ot EVedtotiA

18

r

MRS-L-001757-20 09/21/2020 04:12:12 PM Pg 19 of 22 Trans ID: LCV20201664578

EXHIBIT L
From: <ikseudd6r55@aol.com>
Date: Tue, Aug 11, 2020 at 2:25 PM
Subject: Jeff Scudder & Lucy Taweel- Letters from
Burlingto County Elections and PO Pics
To: <lnfo@hirshsinah.com>
Cc: <kittvcatlucv827@amait.com>

Joseph Dugan
BURLINGTON COUNTY
COUMTV’ HOARD OF ELECTIONS
SO RANCOCAS ROAD
MOUNT HOLLY NJ 06060
PHONE; 609-265-5161
FAX: 609-26 5-3131

LUCY A TAWEEL
1619 JACKSONVILLE JOBSTOVWNRD
BORDENTOWNNJ 08505-4117

Mr. Hirsh Singh.

077210020
Voter ID 8 £0619151**5

Please find the attached pictures of the mail pick-up from the
Jobstown NJ Post Office, on July 3, 2020.
I took these pictures when I placed our mail-in ballots into the
USPS Mailbox located there, at 5:40 PM.
I saw the truck pull up as I was getting ready to drop the ballots
in the box, and decided to take a couple pics to document the
fact I was there.
I called the post office today at 1:35 PM ((609) 723-2586), and
spoke to Kelly.
She informed me that the P.O. was closed on Saturday July
4Th, but the mail I dropped off would have been picked
up Monday July 6Th, at or before 6:00 PM, taken to and
processed in Bellmar NJ. She said my ballot would have
certainly been post marked in Bellmar with a date of July 6Th.
At that rate there is no reason our votes should not have been
counted.
I honestly feel violated. We know of others who had their votes
not counted because the signatures didn't match?
We should assume that there is some well know hand writing
experts closely examining these signatures with a magnifying
glass, or just some amateur's discretion?
The first scenario is not realistic, and the second is not
acceptable.
Mail-in voting for anything other than absentee ballots has the
stench of fraud.
Thank you for you help looking into this matter.
Best Regards,

DOB 03723/1956
Dear LUCYTAWEEL,
The (dice H In receipt of your MtO-Irt batol for ch« PRIMARY ELECTION on July 7. 2020.
Unfortunately, your MaiWn batol wo* no! counted lor the following rceton(s):.
• The Mait-ln balot was receded by the Soerd of Etsdton efter the close of the pcMb on Or
after Section Day,
If you have any questions, please contact this office M the above feted number.

Sincerely Your*.

JOSEPH DUGAN
County Board of Elections

;■

s
JOSEPH DUGAN
BURLINGTON COUhNTY
COUNTY BOARD OF ELECTIONS
50 RANCOCAS ROAD
MOUNT HOLLY NJ 08060
PHONE: 609-265-5161
FAX: 609-265-3131

I

JEFFREY K-SCUDDER
1619 JACKSONVILLE JOBSTOWN RO
BOROENTOWNNJ 06506-4117

;

:!

i
i

i
i.

07/21/2020
Voter ID B L4915552722
008 03707/1955

Jeffrey K. Scudder & Lucy Ann Taweel
Dear JEFFREY SCUDDER.

™ rfityi

■

lM Ilf1'til ill

Theatrics I* ID receipt of your MaWn beaot for (he PRIMARY ELECTION on July 7.2020.
Unfortunately, your MaIMn baSot was not counted for me following reason!*):
• Tho Mait-ln beam ws* received by the Board of Election after the cJoee of the poll* on or
after Elaction Day,
II you have any questIon*, pferi*e coread this office at the above listed number.

I

Sincerely Your*.

I:
JOSEPH OUGAN
County Board of Etocdona

19

MRS-L-001757-20 09/21/2020 04:12:12 PM Pg 20 of 22 Trans ID: LCV20201664578

EXHIBIT M
<

J

June Levy Lukas

(rom.ouCista

A

My pleasure. Will keep you on my
radar arid share with rhy friends.
AUG 5, 10:54 AM

Both me and my husband voted for
you in Monmouth County. I mailed
ballot in 1st of July. They got it on
8th and I received letter our ballots
not counted because not
postmarked. According to MCBE
many more of these.
it

!..;

, .

I know it was a tight race, I want our
votes to be counted
AUG 7, 3:34 PM

How can we;make our votes fdr you
^ get counted.
©

20

■

MRS-L-001757-20 09/21/2020 04:12:12 PM Pg 21 of 22 Trans ID: LCV20201664578

EXHIBIT N

<

Lisa Carole

:

■■

AUG 18,12:06 PM

1
f

I

I just wanted to let you know that,I
mailed in my primary ballot a few
days before the election-1 just
called to ask a few questions and ■
. they said they would confirm that.:
my vote was received and counted.
The lady toldme her computer was
down. To their credit-1 did receive a
call back, but was told that they
r
! never received my ballot. I am 100%
. , sure I did everything correctly.
Essex County . •
AUG 18.1:57 PM

jnSSfflKunRfXSInulflMuiiuliiSaim^B ^

21

r ■

t

S
l
s
!j
i
i

MRS-L-001757-20 09/21/2020 04:12:12 PM Pg 22 of 22 Trans ID: LCV20201664578

EXHIBIT O

©

mihorvath 2:46 pm

<r\

☆

Primary Elections 2019 Inbox

to info v

Please accept the following correction: when I
emailed you on 9/21/20 the subject line read Primary Election 2019. It should have read:
Primary Election 2020.

©

All the content of the email also referred to the
2020 Primary Election.

Thank you for taking the time to accept my call
today.

Thank you!

On the day of Primary Elections I had an issue at
the voting poll that is still disturbing to me.

Marta I. Horvath

mihorvath Aug 12
to Info v

Mr. Sing,

I went to the assigned voting poll for East
Windsor's 5th district. Although my name was on
the book as a registered voter I was not allowed to
use the voting machine to cast my vote. I was
advised that the machine was for use by individuals
with a certified disability - ONLY. If used by anyone
without a disability the person could be charged
with fraud. So I was offered the option to cast a
"provisional vote" which was a written vote that I
would still have to hand to one of the workers. I
still did not feel comfortable doing that either. I
asked the worker to give me a name and phone
number of a supervisor or someone who i could
speak with to get permission to cast my vote on
the machine since I only felt comfortable casting
my vote that way.
The worker called someone and explained what I
was requestin. Once she was done with the call
she advised me that my only option was to cast a
provisional vote per the governor's executive order.

More was discussed and I was allowed to ask the
judge and state representatives questions.
However, I didn't know what to ask. It wasn't like I
knew beforehand what would happen or how things
worked. I only knew about my prior voting
experiences.
Finally the judge gave his decision. I was only
granted an option to vote provisionally. So I had to
return to the voting poll for my district to cast my
vote.
When I got to the poll I told the worker that I had
spoken to a judge and his decision was that I would
have cast a provisional vote.
I noticed there was a stack of votes on the small
table (I could only see the very top one with a
signature). So I asked her what that stack was and
she said they were votes that had to be counted. I
asked what they were doing out on the table and
she said she was getting ready to count them. She
said that's they were only given 50 provisional
votes so she had to make sure that they were
counted. She also explained that the count had to
be so accurate that even if all votes were not used
- the blank forms had to be included because the
entire 50 had to be returned in the bag. I asked
about how the votes were transported and she
showed me the bag and the tag that would be
placed to seal the bag for transport.

l felt the response was unacceptable and requested
for a phone number of someone that could help
me. Four phone calls later I was given the
governor's office number but couldn't get through
to a live person so I backtracked. I was then
allowed to speak to someone who said that my last
resort would be to go before a judge.
I drove to Trenton. Went to an office that was set
up with a laptop computer so I could speak via
Zoom to the judge who was at the court building in
another location. I was sworn in and the judge
asked questions. I was surprised that the judge
asked me if I believed it was my constitutional right
to vote using a machine. He also asked if I could
cite any cases regarding this. I explained that I
didn't really know the constitution regarding voting
laws and that I was not an attorney and didn't know
anything about any cases... The questioning
continued (but I can't recall much after that). The
state had a representative and obviously the judge
knew the laws and so forth.
My only concern was that I had always voted using
the machine where I pulled a lever and could cast
my vote privately. So I wanted to be granted the
right to use the machine this time just as the
disabled individuals were given that right.
The judge allowed the state representative to
speak. He also asked the gentleman who worked
at the court to speak about provisional voting and
how the votes were handled...
More was discussed and I was allowed to ask the
judge and state representatives questions.
However, I didn't know what to ask. It wasn't like I
knew beforehand what would happen or how things

However, although I casted a provisional vote as
per the decision of the judge, I still did not feel
comfortable.
It wasn't until much later that I realized I had seen
someone's signed vote. Which means that the vote
was not in a sealed envelope. Eventhough I was
handed an envelope. I also, I realized that 50
provisional votes may not have been enough, What
if more than 50 individuals showed up and had to
vote provisionally? That would mean that they
could not vote...
I do not feel secure about the results of the primary
election and how things were handled. Now I’m
majorly concerned about what will happen with the
upcoming November Elections. I sincerely hope
that we can cast our votes using the machine, as in
the past.
If we can stand on a line in stores (as long as we're
wearing a mask and keeping 6ft. distace from each
other), why can't we do the same thing for for
something as important as VOTING?

I don't know what to do but I hope something can
be done to ensure the upcoming election will be
handled differently and with integrity.
It you have any questions please feel free to
contact me.
Marta I. Horvath

Cell: 908-883-0929

22

i
i

APPENDIX 7

Second Singh Declaration (Filed in Superior Court,
Appellate Division October 13, 2020)

ivii

\w u. vw i f ui

vs/; i ~t/ ^v^.v

i wi

ivy

iiciiio

i Ly. k.v v I.V&V/ i ut.v/u“rvj

Hirsh Singh
Filing as Pro Se
P.0. Box 407 Linwood, NJ 08221
9 Wexford Lane Linwood, NJ 08221
(609)335-5289
info@hirshsingh.com

HIRSH SINGH,
Petitioner,

SUPERIOR COURT OF NEW JERSEY
MORRIS COUNTY

v.
HONORABLE PHILIP D. MURPHY,
in his official capacity as Governor of
New Jersey, HONORABLE TAHESHA
WAY, in her official capacity as New
Jersey Secretary of State; John Doe

LAW DIVISION
DOCKET NO. MRS-L-01757-20
CIVIL ACTION
DECLARATION BY HIRSH SINGH

Respondents.

I, Hirsh Singh, declare as follows:
1.

I am over 18 years of age, am the Plaintiff in this case, and am fully

competent to make this declaration. I make this declaration of my personal
knowledge.
2.

I was a candidate in the Republican Party primary election held on

July 7, 2020 to determine the Republican Party’s official candidate for the general
election for the race for the United States Senate seat.

IV11 \W

3.

l_ W I I

I “4.U

Ws//

I “Tt^\J£-\J

■ y e— w i i \j nano

iu.

uwv

i

wlv/utu

I began my campaign in December 2019 and expended considerable

resources including my time and energies towards planning, formulating strategies,
and campaigning for the primary election that was supposed to be held in
accordance with New Jersey’s laws.
4.

Defendant Phil Murphy’s Executive Order 144 issued on May 05,

2020 significantly affected me and my campaign as I had to reformulate my
strategies and plans to fit in with the new time frame and the new manner of
primary election as stipulated by the Executive Order.
5.

Executive Order 144 forced me to spend additional resources

including in the form of expending my energies formulating new strategies as well
as coming up with new methods of campaigning to accommodate the new manner
of election and executing such strategies and methods.
6.

On June 25, 2020, the office of the Attorney General sent a cease and

desist letter to me asking me to cease and desist from disseminating a mailer I had
been sending to voters. Exhibit B of this declaration is a true and correct copy of
the cease and desist letter I received from the Attorney General’s office.
7.

Exhibit A of this declaration is a true and correct copy of the mailer I

had been sending out to voters and which was also attached to the cease and desist
letter sent by the Attorney General’s office described above.
8.

2

Upon receiving the cease and desist letter, I ceased working on

IVII \v/ L. W I f WM ~fc.v/

\J\Jl I -Tt

v/ wi

iv/ i iciiio iu. i_w v

i v/i.v/UT'J

campaign related activities such as drafting policy, crafting messages for voters,
and sending out mailers, and instead spent time researching the law and creating a
press release to deal with the media fallout of the threatening cease and desist
letter.
9.

Upon receiving the cease and desist letter, I personally accessed the

official website of the Camden County Clerk at
https://www.camdencountv.com/service/voting-and-elections/reauest-replacementvote-bv-mail-ballot/ and found that it had a webpage containing information for
requesting a replacement ballot. Among the information stated as a reason for
requesting a duplicate ballot was “Your ballot was not voted correctly.” Exhibit C
contains a true and correct copy of the screen shot of the relevant section of the
webpage.
10.

Exhibit D contains a true and correct copy of the relevant portions of

the official ballot I received for voting in the primary election in Atlantic County
containing instructions for requesting a replacement ballot and includes the
condition that the voter can request a new ballot if he or she incorrectly marked the
ballot.
11.

I visited the Post Offices of the United States Postal Service located at

Toms River and spoke to the Post Master Thomas Wagner and sought information
related to the ballots of the primary election of July 7, 2020.1 also visited the
3

IVII \W

I— WV I I <y>l “4.U

Vv/f rTf£.V^V

“T Ul

IU

IIQIIO

IU.

LWVLUfcUl U&.V/UTV

municipal post offices of the Atlantic County and Ocean County and spoke to the
postmaster at each location in order to obtain information about the ballots.
12.

Neither were the Postmasters able to provide the information, nor was

there a well defined procedure to seek information related to election ballots under
the Freedom of Information Act to which all federal agencies including USPS are
subject to.
13.

Mr. Thomas Wagner provided me, by scribbling on the back of his

business card, the name one Mr. John DAlessio as the individual who was
responsible for all mail-in ballots at USPS in New Jersey, but the Petitioner was
not able to get in touch with Mr. DAlessio after several attempts at calling,
emailing, and going to his USPS Belmar place of business, as Mr. DAlessio did not
respond to the Petitioner's attempts to make contact.
14.

Attached hereto, as Exhibit E and Exhibit F, are the front and back

sides of the business card that Mr. Thomas Wagner provided to me with the name
of John DAlessio.
15.

All my interactions and communication with the postmasters

mentioned above, as well as my communications to Mr. DAlessio occurred on July
22,2020 or prior to that date, and there has been no response from them so far.
I declare under penalty of peijury that the foregoing is true and correct.
Executed on September 14, 2020.
4

<tA,
Hirsh Singh

*—

IVII VW L. UV I I V/ I "tW

\jksi

i

~r/

I

^ .V/ .V/l

EXHIBIT A

6

IV/

II G4I l<9

IL/.

L.W -V

I V/fcV/V/'T'/

IVII \U I- VV I I V / "L.V

vvr i —rt<.v£.v

I

vi

IV

I I Cl IIO

I L/ .

L.U V ^V^V I VtVVTV

SINGH
* * *US SENATE

Dear Fellow Patriot,
The socialist Democrats have infiltrated New Jersey s Republican U
Primary, escorted by never-Trump Republicans dedicated to s opp
Presiiderit’s're-eiection.
That’s why I, Hirsh Singh, humbly ask for both your vote and nanci
help me fight along side President Trump to drain the swamp.
As a patriot, if vou have been hoodwinked into voting for Rik Me ta, i
Y —
patriotic duty to contact vour county clerk and request a duplicate ballot to vox
the only Conservative Hirsh Singh. Your duplicate ballot will rep ace yo
earlier ballot. We must counter the evil that is trying to destroy this country
our President.
This is the time to remove Coiy Booker from politics and I am dedicated to you
and New Jersey.
As a lifelong Conservative Republican who has fought to drain the Jersey swamp, I
once again humbly ask for your vote and financial support.
; .

^

For GOD and cpuntiy ,^

f-,i ^

.

7

■

''

T\

- .

‘

'

•;

you read my Values and Vision at
wwwfbireBSngKBom^j^^been a consistent Conservative. I believe in the
S^^^^life^eWgTOtffllyai^arms and upholding our Constitution.
KrosRnrotBrougnBiDertv^^^
~x|rrq'i:f rforrrrT^h
'
LA
IX-

gontacU)jJjerejl609i608r0113> Inforahlrthcin^u ....
jaio:for:bv7sii GroR~SENATF

tLv.

7

IV11 \W

I— \J\J I f \J I “4.U

\J\JI. I "T/

1 «

V Ul

IO

liailO

IU.

LUV £-\J£-\J I

EXHIBIT B

State of New Jersey
Office of the Attorney General
Department op Law and Public Safety
Division of Law
25 Market Street

Philip D. Murphy
Governor

Sheila Y. Oliver
Lt. Governor

PO Bo* 112
Trenton, NJ 08625*0112

GurBir S. Grewal
Attorney General

Michelle L. Miller
Director

June 25, 2020
VIA EMAIL

Hirsh Singh
Singh - US Senate
info@hirshsingh.com
Re:

Letter to Voters Requesting Duplicate
Ballot for July 7, 2020 Primary Election

Dear Mr. Singh:
Please accept this letter on behalf of the Secretary of State
as the Chief Elections Official in the State of New Jersey
regarding the attached undated letter from you asking voters who
have cast mail-in ballots in the July 7, 2020 Republican Primary
Election to request a "duplicate ballot" to change their vote.
Your letter states that by casting a "duplicate" mail-in
ballot and sending it to the county board of elections, "Your
duplicate ballot will replace your earlier ballot." This statement
is false. After receiving a mail-in ballot, any "duplicate" ballot
received by the county board of elections will be rejected.
i

As you are aware, it is a violation of federal law for a voter
to vote more than once in a federal election, with a penalty of a
fine of not more than $10,000 or imprisonment not more than five
In addition, New Jersey
52 U. S . C . 1.0307 (e) .
years, or both.
statutes N.J.S.A. 19:34-11 and 19:34-12 make it a crime of the
third degree for any person who votes more than once at any
election.
Your actions encouraging voters to vote more than once is in
direct violation of 52 U.S.C. 10302, N.J.S.A. 19:34-11 and 19:34Further, pursuant to N.J.S.A. 19:34-20, it is a crime of the

Hughes Justice Complex • Telephone: (609) 376-2955 • Fax:(609)292-6239
New Jersey la An Equal Opportunity Employer • Printed on Recycled Paper and Recyclable

8

IVII \W. U UU I I CM

l

\J*JI IT

I

I IOI IO

IU.

I_w V

I V/CWUTW

June 25, 2020
Page 2

third degree for whoever "at any election counsels, procures, aids,
advises, assists or abets any person to vote or to attempt to vote
upon any name other than his own, or knowingly cast Or attempt to
cast more than one ballot at one time of voting;. . . or at any
election shall in any way counsel, procure, aid, advise, assist or
abet any official or person in any a.ct which is contrary to the
tt
provisions of this title. . .
You. are to immediately cease and desist from any further
mailing, emailing or any other dissemination of the attached
letter.
You are further directed to immediately provide this
office, the State Division of Elections, all county clerks and
county boards of elections with a list of the names and addresses
of all persons who were sent a copy of your letter.
Sincerely,
GURBIR S. GREWAL.
ATTORNEY GENERAL OF NEW JERSEY
By:

c:

9

s/George N. Cohen___________
George N. Cohen
Deputy Attorney General
Attorney ID #002941985
George.Cohen@law.njoag.gov

Tahesha Way, Secretary of State
State Division of Elections
County Clerks
County Boards of Elections
County Superintendents of Elections

l v11 vvj u vv I I sJ I ~£-W

\j\ji i

t/

£.u^.u

I w Ul

IW

MUIIO 11^. I.W^V^V I OZ-OUTV

EXHIBIT C

V!
Ble

Edit

View

History

Request Replacement Vo X

©-» O G

Bookmarks

Request Replacement Vote by Mail Ballot :| Camden County, NJ-Mozilla Fircfox
Iools Help

-DX

+

(D A https://www.camdencounty.com/service/voting-and-electk

O Most Visited W (Jnux Mint 33 Blog 33 Forums !& Community |

0 | ... 0 6

Q, Search

i IH\ QD O Q

News

itcqmrsrn'cpioccnTcnnfVictJjpTi

■ Early Voting Center
■ Election Results

I

i

i

iI

the person the Authorized Messenger on the form, this messenger shall be a
>■

Military and Overseas Vote by
Mail

i
*' ■ Polling Places
’
] • Register to Vote

t

Request Replacement Vote By Mail Ballot Form for Authorized Messenger

Common reasons to request a replacement ballot are:

« You never received your ballot
• Your ballot is ripped, tom or damaged
• Your ballot was not voted correctly
• Your ballot was misplaced

• Vote by Mail

. !

, ■ Vote by Mail List

During the period beginning 6 days prior to an election until 3pm the day prior
to an election, the County Clerk's Office will be unable to accept requests for

r
• 1 j • Voter Update

voters in this election.
The request form can be found here:

:

ij •"Sample
- vv.:"Ballots
i • Vote by Mail Drop Boxes

family member or a registered voter of Camden County. The messengeijjannot
be a Candidate in this election or serve as o messenger for more than THREE

i

[ • Request Replacement Vote by ■
Mail Ballot
' ■

10

If you are unable to appear in person to receive a replacement ballot,a
messenger can be used to pick up your ballot for you. You must designate

i f Information for Candidates

t .

replacement ballots by mail email or fax. The ballots will not be able to reach
you in time since they would hove been sent via the US Postal Sen/Ice.

£

v/v/i i~r/c.u<.v

I V11 \U I— \J\J I f \J I ~£>V

1^11

WI

I \J

II C4I IO

lb/.

UW V £m\J£m\J I

EXHIBIT D

*+

»■-

¥ I-

o
o»

:zl 3
P E".

te.- ■
fV;
5":V

fit

it
o °

fetes..-:

*
§
*

= S2 <*

"’

EDWARD P.McGETTIGAN

«1

Atlantic County Cleric

•<

?i£1

' /'

■

/-Hi

■

4

N«

l|
s-i
§ §

To Protect Your Vote:
IT IS AGAINST THE LAW FOR ANYONE EXCEPT YOU
THE VOTER TO MARK OR INSPECT THIS BALLOT.
However, a family member may assist you in doing so.

c I.

si

icn

~

&a
<® Q

■

O <

WPOHTAHT INSTRUCT!OHS TO vutehs
lam-'
Please read the following before marking your ballot:

36

8 ■:
o

>§•

3

P

”

1. To vote for any person whose name Is prints) on this ballot me only a pencil
or ink pen (black or blue) and fill in the oval ft to the right of the candidate's i
name, not in excess of the number to be elected to the office.
2. To vote for any person whose name is not printed on this baHot, write the '
name in the PERSONAL CHOICE COLUMN, and fill In that oval to the right of
name. Do not vote for more candidates than are to be elected.
3. If you tear, deface or incorrectly mark this ballot, return it to the Atlantic
County Clerk’s Election Office and obtain a new ballot.

'■O

S-'S
P" p
Gt 3

t?

V-£

' .
.’

if
■
.■

i

m

it
■ii

ii

■

i ,1
-•
!§-!
..i£: Su
■1 i: o S’

Is !-s'
,r;s
l

So

3
|

'!§ 3.

% «
!?

!
it

'l

i

11

...

■
■

z\

.•WBsgaaSBJ

"^ssiiif

s'
!■;

j&iAtfgsjxasoif.Mm^
;:

a usiHxa

Aj_nr»T/^ i a*>a^ A A“i

• /-\ i

01 i*i-i i

r> i

i r\ -» i

R

i

A"7A"7 /!_ I 1 /AA

n*7_ I /> I I AA ’H

A»\ IIAI

ei

A«>C
<3

',99

^'Ss~
&'-

Misjop

aiiamxa

r\j^.rsr^-yr\ i

a ah

‘/ni onni «

ai

IA A

fi .

A-7A-7/i_i

ir*r\

A7_ I A I I AA 1 A\ II AI

APPENDIX 8

Third Singh Declaration (Filed in Superior Court,
Appellate Division October 13, 2020)

ivn \w l- uv < r v-» i -tw

\J\JI ^KJI L.\J£-\J

a

.1

VI

I

I I C4I IO

ll_> .

UW V

I I

I

I

Hirsh Singh
Filing as Pro Se
P.0. Box 407 Linwood, NJ 08221
9 Wexford Lane Linwood, NJ 08221
(609)335-5289
info@hirshsingh.com

HIRSH SINGH,
Petitioner,

SUPERIOR COURT OF NEW JERSEY
MORRIS COUNTY

v.
HONORABLE PHILIP D. MURPHY, in
his official capacity as Governor of New
Jersey, HONORABLE TAHESHA WAY,
in her official capacity as New Jersey
Secretary of State; HONORABLE Joanne
Schwartz, in her official capacity as
Burlington County Clerk, BURLINGTON
COUNTY BOARD OF ELECTIONS and
COUNTY BOARD OF CANVASSERS;
HONORABLE Joseph Ripa, in his official
capacity as Camden County Clerk,
CAMDEN COUNTY BOARD OF
ELECTIONS and COUNTY BOARD OF
CANVASSERS; HONORABLE Stever
Peter, in his official capacity as Somerset
County Clerk, SOMERSET COUNTY
BOARD OF ELECTIONS and COUNTY
BOARD OF CANVASSERS;
HONORABLE Rita Marie Fulginiti, in her
official capacity as Cape May County
Clerk, CAPE MAY COUNTY BOARD
OF ELECTIONS and COUNTY BOARD
OF CANVASSERS; HONORABLE
Celeste M. Riley, in her official capacity as
Cumberland County Clerk,
CUMBERLAND COUNTY BOARD OF
ELECTIONS and COUNTY BOARD OF
CANVASSERS; HONORABLE Mary H.
Melfi, in her official capacity as Hunterdon

LAW DIVISION
DOCKET NO. MRS-L-01757-20
CIVIL ACTION
THIRD DECLARATION BY HIRSH
SINGH

tvn \w. I— WU I / sJ t ~£-\J

UV/ £m\J! £m\J£m\J

County Clerk, HUNTERDON COUNTY
BOARD OF ELECTIONS and COUNTY
BOARD OF CANVASSERS;
HONORABLE Paula Sollami-Covello, in
her official capacity as Mercer County
Clerk, MERCER COUNTY BOARD OF
ELECTIONS and COUNTY BOARD OF
CANVASSERS; HONORABLE Elaine
Flynn, in her official capacity as Middlesex
County Clerk, MIDDLESEX COUNTY
BOARD OF ELECTIONS and COUNTY
BOARD OF CANVASSERS;
HONORABLE Christine Giordano
Hanlon, in her official capacity as
Monmouth County Clerk, MONMOUTH
COUNTY BOARD OF ELECTIONS and
COUNTY BOARD OF CANVASSERS;
HONORABLE Ann F. Grossi, in her
official capacity as Morris County Clerk,
MORRIS COUNTY BOARD OF
ELECTIONS and COUNTY BOARD OF
CANVASSERS; HONORABLE Danielle
Ireland-Imhof, in her official capacity as
Passaic County Clerk, PASSAIC
COUNTY BOARD OF ELECTIONS and
COUNTY BOARD OF CANVASSERS;
HONORABLE Joanne Rajoppi, in her
official capacity as Union County Clerk,
UNION COUNTY BOARD OF
ELECTIONS and COUNTY BOARD OF
CANVASSERS; HONORABLE Holly
Mackey, in her official capacity as Warren
County Clerk, WARREN COUNTY
BOARD OF ELECTIONS and COUNTY
BOARD OF CANVASSERS;
HONORABLE Jeff Parrott, in his official
capacity as Sussex County Clerk, SUSSEX
COUNTY BOARD OF ELECTIONS and
COUNTY BOARD OF CANVASSERS;
HONORABLE Dale A. Cross, in his
official capacity as Salem County Clerk,
SALEM COUNTY BOARD OF
ELECTIONS and COUNTY BOARD OF
2

IIC4IIO

I !_/ .

V

I r

t

«

IVII \W L. W I f .V/ I

Uv/I ^Uf

y u vyi

i

iuiio

iLy.

lwlvlu

i f

i i

CANVASSERS; HONORABLE Scott M.
Colabella, in his official capacity as Ocean
County Clerk, OCEAN COUNTY
BOARD OF ELECTIONS and COUNTY
BOARD OF CANVASSERS;
HONORABLE E. Junior Maldonado, in
his official capacity as Hudson County
Clerk, HUDSON COUNTY BOARD OF
ELECTIONS and COUNTY BOARD OF
CANVASSERS; HONORABLE James N.
Hogan, in his official capacity as
Gloucester County Clerk, GLOUCESTER
COUNTY BOARD OF ELECTIONS and
COUNTY BOARD OF CANVASSERS;
HONORABLE Christopher J. Durkin, in
his official capacity as Essex County Clerk,
ESSEX COUNTY BOARD OF
ELECTIONS and COUNTY BOARD OF
CANVASSERS; HONORABLE John S.
Hogan, in his official capacity as Bergen
County Clerk, BERGEN COUNTY
BOARD OF ELECTIONS and COUNTY
BOARD OF
CANVASSERS;HONORABLE Edward P.
McGettigan, in his official capacity as
Atlantic County Clerk, ATLANTIC
COUNTY BOARD OF ELECTIONS and
COUNTY BOARD OF CANVASSERS.
Respondents.
I, Hirsh Singh, declare as follows:
1.

I am over 18 years of age, am the Plaintiff in this case, and am fully

competent to make this declaration. I make this declaration of my personal
knowledge.
2.

I was a candidate in the Republican Party primary election held on

July 7, 2020 to determine the Republican Party’s official candidate for the general
3

■ Vl> \W

U VU I / V/f ~d-\J

v v// £.u;

^ “T Ul

t

I t C4I IO

IL/.

L.W V &V4.V I I

I

I

election for United States Senate.
3.

I personally accessed the official websites of the comity clerks of

Atlantic, Cape May, Cumberland, Salem, Gloucester, Camden, Burlington, Ocean,
Monmouth, Mercer, Middlesex, Somerset, Hunterdon, Warren, Morris, Union,
Hudson, Essex, Sussex, Passaic and Bergen counties in the State of New Jersey
and gathered the information about the total number of provisional votes (votes
based on in-person voting) excluding the mail-in votes, as well as the total number
of votes including the mail-in votes credited to each Republican candidate in the
primary election to choose the nominee for United States Senate conducted on July
7, 2020. Exhibit A of this declaration contains a table I prepared based on this
information and has the number of votes received through provisional ballots for
each candidate in the 13 counties that provided the breakdown.
4.

No breakdown of provisional ballots and mail-in ballots was posted

on the websites of the clerks of Cape May, Salem, Gloucester, Middlesex,
Somerset, Warren and Hudson counties.
5.

The official website URLs of the county clerks are listed in Exhibit

6.

The Singh Declaration and Second Singh Declaration which were

B.

previously submitted to the court are reincorporated in full herein for the purpose
of the statements in those declarations being sworn under oath.
4

IV11 \U I— UU .\ I sJ I ~£-\J

\J Ul

I.

IIC4IIO IU.

V £.U£.U

f ^\J\J I

I

I solemnly swear under oath and declare under penalty of perjury that the
foregoing is true and correct and contains the truth, the whole truth and nothing but
the truth. Executed on September 26,2020.

By: s/
Date: September 28th, 2020

5

Hirsh Sinsh _______ ;
HIRSH SINGH PRO SE.

IV M \W

U \J.\J. I / VI ~£-\J

' «

KJsJI

W VI

I I C4I IO IU.

V

I r

I

I

EXHIBIT A
CONSTITUTIONAL PROVISIONAL BALLOTS
Hirsh Rikin
Tricia
Singh Mehta | Flanagan
Candidate:

TOTALS:
Natalie
Rivera

Eugene
Anaganos

County
36
219
111
1921
136
NOT PUBLIC/DENIED INFORMATION REQUEST
181
53
20
857
130
NOT PUBLIC/DENIED INFORMATION REQUEST
NOT PUBLIC/DENIED INFORMATION REQUEST

Atlantic
Cape May
Cumberland
Salem

Gloucester
Camden
Burlington
Ocean
Monmouth
Mercer

1191

401

214

85

NOT PUBLIC/DENIED INFORMATION REQUEST

5951
2627
497

1137
3239
659

647
1080
184

451
350
75

93
163
73

NOT PUBLIC/DENIED INFORMATION REQUEST
NOT PUBLIC/DENIED INFORMATION REQUEST
204
46
26
191
306
NOT PUBLIC/DENIED INFORMATION REQUEST
212
334
1056
2604
1161
914
212
146
26
553
NOT PUBLIC/DENIED INFORMATION REQUEST

Middlesex
Somerset
Hunterdon
Warren
Morris
Union

Hudson
Essex
Sussex
Passaic
Bergen

Singh wins by:

1241
?
?

3490
4427
8,279
7459
- 1496
?
?
773
?
5367

1851

443
521
358
2243

143
296
748:
897

57
62
125
317

29
48
34
150

?
1161
1398
2131
4875

19601 12731
6870 Votes

6268

2219

1117

46371

489
471
866
1268

TOTALS:

6

1599

2423
?

IVII \W U WW I f V/f "fcU

I I Ul Id IL>.

\JsJ! C\Jf

I—W V

I I ^\J\J I

I

EXHIBIT B
County

Official Website:

Atlantic

https://www.atlanticcountyclerk.Org/wp-content/uploads/2020/08/2020Primary-Election-Results-Official.pdf

Cape May

https://results.enr.clarityelections.eom/NJ/Cape_May/104470/web.255599/#/
detail/212

Cumberland

https://ccclerknj.corn/wp-content/uploads/2020/09/2020-Primary-ElectionRepublican-Senator-House.pdf

Salem
Gloucester

https://salemcountyclerk.org/wp-content/uploads/2020/07/Summary-Reportmin.pdf
Not Available

Camden

https://www.camdencounty.com/wpcontent/elections/Primary2020/2020 Primary Canvasser.pdf

Burlington
Ocean

https://www.co.burlington.nj.us/DocumentCenter/View/3554/PrimaryElection-Summary
https://results.enr.clarityelections.eom/NJ/Ocean/104461/web.255599/#/deta
il/5

Middlesex

https://results.enr.clarityelections.eom/NJ/Monmouth/104472/web.255599/#
/summary
Results provided by Board of Elections
https://results.enr.clarityelections.com/NJ/Middlesex/104468/Web02.255596/
#/

Somerset

https://results.enr.clarityelections.eom/NJ/Somerset/104459/web.255599/#/s
ummary and https://www.insidernj.com/press-release/results-somersetcounty-july-7-primary-election-completed/

Hunterdon

https://www.co.hunterdon.nj.us/election/2020/PRIMARY/OFFICIAL%20SOV%2
0P2020.pdf

Monmouth
Mercer

Essex

https://www.warrencountyvotes.com/sites/default/files/inlinefiles/0fficial%2QSumma ry%207-24-2020 0.pdf
https://results.enr.clarityelections.eom/NJ/Morris/104457/web.255599/#/sum
mary
https://results.enr.clarityelections.eom/NJ/Union/104460/web.255599/#/sum
mary
https://results.enr.clarityelections.eom/NJ/Hudson/104453/web.255599/#/su
mmary
https://www.essexclerk.com/_Content/pdf/ElectionSummaryReportRPTJuly2020.pdf_____________________________________________________

Sussex
Passaic

https://sussexcountyclerk.org/docs/elections/2020/Primary/Official/COUNTYS
UMMARYOFFICIAL.html
https://www.passaiccountynj.org/Print%20SOV%20Report%200724 2.pdf

Bergen

https://www.bergencountyclerk.org/_Content/pdf/ElectionResult/Precinct%20
Summary%202020%20Bergen%20Primary%20Electipn.pdf

Warren
Morris
Union
Hudson

7

APPENDIX 9

Minute Order RICHARDSON et al v. TRUMP et al,
in the District of Columbia Federal District Court
(October 27, 2020)

Full docket text:
MINUTE ORDER granting [66] emergency motion to enforce and monitor compliance with
preliminary injunction. It is hereby ORDERED that by no later than 9:00 AM on October 28,
2020, Defendants shall issue a one-page notice to Area Vice Presidents, Managers of Operations
Support, and any other United States Postal Service ("USPS") personnel who were previously
informed about the guidelines issued on July 14, 2020, by USPS Vice President of Logistics,
Robert Cintron, regarding the use of late and extra trips: (1) "The guidelines issued on July 14,
2020, by USPS Vice President of Logistics, Robert Cintron, regarding the use of late and extra
trips are rescinded;" and (2) "USPS personnel are instructed to perform late and extra trips to the
maximum extent necessary to increase on-time mail deliveries, particularly for Election Mail. To
be clear, late and extra trips should be performed to the same or greater degree than they were
performed prior to July 2020 when doing so would increase on-time mail deliveries. Any prior
communication that is inconsistent with this instruction should be disregarded." It is FURTHER
ORDERED that by no later than 9:00 AM on October 29, 2020, Defendants shall issue a onepage notice to, or deliver a Stand-Up Talk to, all USPS personnel who may have job
responsibilities related in any way to late and extra trips, stating that: "Late and extra trips will be
approved to the maximum extent necessary to increase on-time mail deliveries, particularly for
Election Mail. Any prior communication that is inconsistent with this should be disregarded. To
be clear, late and extra trips will be approved to the same or greater degree than they were
performed prior to July 2020 when doing so would increase on-time mail deliveries." It is
FURTHER ORDERED that by no later than 9:00 AM on October 29, 2020, Defendants shall
distribute, in the same form and to the same individuals who were previously advised about the
need to "ensure that completed ballots reach the appropriate election official by the state's
designated deadline," a list of state-specific statutory ballot receipt deadlines, so that USPS
managers and employees can implement the Election Mail guidance that Defendants have
recently issued. The parties shall confer and agree on the form and substance of the list. It is
FURTHER ORDERED that beginning October 28, 2020 and until further order of the Court,
Defendants shall file with the Court by 10:00 AM each day: (1) updated data on the number of
extra and late trips performed the preceding day, at the Nation, Area, and District level, including
any available data that is specific to Election Mail, to the maximum extent feasible; (2) updated
data on the percentage of on-time deliveries at the Nation, Area, and District level, including any
available data that is specific to Election Mail to the maximum extent feasible; and (3) any other
reports generated after the date of this Order and produced to Congress, other courts, or other
litigants. It is FURTHER ORDERED that beginning October 28, 2020 and until further order of
the Court, the Court schedules a daily status conference at 3:00 PM via VIDEO
TELECONFERENCE. The parties shall contact Mr. Mark Coates, the Courtroom Deputy Clerk,
for the dial-in information. Signed by Judge Emmet G. Sullivan on 10/27/2020. (Icegs3)

